<html>
<title> - EDUCATION REFORMS: PROMOTING FLEXIBILITY AND INNOVATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
        EDUCATION REFORMS: PROMOTING FLEXIBILITY AND INNOVATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 7, 2011

                               __________

                           Serial No. 112-17

                               __________

  Printed for the use of the Committee on Education and the Workforce



                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
65-498                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ff988f90bf9c8a8c8b979a938fd19c9092d1">[email&#160;protected]</a>  

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California            Lynn C. Woolsey, California
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Carolyn McCarthy, New York
Tim Walberg, Michigan                John F. Tierney, Massachusetts
Scott DesJarlais, Tennessee          Dennis J. Kucinich, Ohio
Richard L. Hanna, New York           David Wu, Oregon
Todd Rokita, Indiana                 Rush D. Holt, New Jersey
Larry Bucshon, Indiana               Susan A. Davis, California
Trey Gowdy, South Carolina           Raul M. Grijalva, Arizona
Lou Barletta, Pennsylvania           Timothy H. Bishop, New York
Kristi L. Noem, South Dakota         David Loebsack, Iowa
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania
[Vacant]

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 7, 2011....................................     1

Statement of Members:
    Bucshon, Hon. Larry, a Representative in Congress from the 
      State of Indiana, submission for the record:
        Florida's McKay Scholarship Program report, April 2008...    51
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     4
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................    21
        Prepared statement of....................................    22

Statement of Witnesses:
    Amoroso, Dr. Gary M., superintendent, Lakeville Area Public 
      Schools....................................................     8
        Prepared statement of....................................     9
    Barresi, Janet, superintendent of public instruction, 
      Oklahoma State Department of Education.....................     5
        Prepared statement of....................................     6
    Grier, Dr. Terry B., superintendent, Houston Independent 
      School District............................................    15
        Prepared statement of....................................    17
        Additional submission: ``School Meal Standards''.........    19
    Maqubela, Yohance C., chief operating officer, Howard 
      University Middle School of Mathematics and Science........    10
        Prepared statement of....................................    13


        EDUCATION REFORMS: PROMOTING FLEXIBILITY AND INNOVATION

                              ----------                              


                        Thursday, April 7, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:02 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, McKeon, Biggert, 
Platts, Hunter, Roe, Walberg, DesJarlais, Hanna, Rokita, 
Bucshon, Gowdy, Barletta, Noem, Roby, Kelly, Miller, Kildee, 
Scott, Woolsey, Hinojosa, McCarthy, Tierney, Kucinich, Wu, 
Davis, and Hirono.
    Also present: Representative Polis.
    Staff present: Katherine Bathgate, Press Assistant; James 
Bergeron, Director of Education and Human Services Policy; 
Colette Beyer, Press Secretary-Education; Kirk Boyle, General 
Counsel; Casey Buboltz, Coalitions and Member Services 
Coordinator; Daniela Garcia, Professional Staff Member; Jimmy 
Hopper, Legislative Assistant; Barrett Karr, Staff Director; 
Brian Melnyk, Legislative Assistant; Brian Newell, Press 
Secretary; Alex Sollberger, Communications Director; Linda 
Stevens, Chief Clerk/Assistant to the General Counsel; Alissa 
Strawcutter, Deputy Clerk; Brad Thomas, Senior Education Policy 
Advisor; Tylease Alli, Minority Hearing Clerk; Jody Calemine, 
Minority Staff Director; Jamie Fasteau, Minority Deputy 
Director of Education Policy; Sophia Kim, Minority Legislative 
Fellow, Education; Brian Levin, Minority New Media Press 
Assistant; Kara Marchione, Minority Senior Education Policy 
Advisor; Megan O'Reilly, Minority General Counsel; Helen 
Pajcic, Minority Education Policy Advisor; Julie Peller, 
Minority Deputy Staff Director; Alexandria Ruiz, Minority 
Administrative Assistant to Director of Education Policy; 
Melissa Salmanowitz, Minority Communications Director for 
Education; and Laura Schifter, Minority Senior Education and 
Disability Policy Advisor.
    Chairman Kline [presiding]. A quorum being present, the 
committee will come to order. Good morning, and welcome. I 
would like to thank our witnesses for being with us today. I 
make an administrative note the ranking member, Mr. Miller, is 
in route. And by agreement, we are going to start. I am going 
to drag out my opening statements and let him catch up as soon 
as he can get here. I think he is on the floor. And that 
sometimes takes some time to travel.
    Well, over the last several months, our committee has been 
actively examining the current state of education in the 
nation. We have listened to state and local leaders who are 
working to improve the quality of education our children 
receive.
    Through a series of hearings, we have heard stories of both 
challenges and opportunities facing schools. The opportunities 
are found in the determination of countless individuals who 
realize our current system is failing our children and are 
fighting to do something about it. As a result, parents, 
grandparents, teachers, reformers and community leaders are 
shining a bright light on a broken system and pursuing real 
change that puts children first.
    The challenges, unfortunately, are in many ways found in an 
education bureaucracy resistant to the very kind of meaningful 
reforms people are trying to achieve. Policymakers have over 
the years added layers of mandates and regulations that weigh 
down our nation's schools. Every federal tax dollar spent 
should provide results, but we must ensure that the regulatory 
burdens don't outweigh the benefits of federal assistance.
    Today, the Department of Education administers 90, 90 
programs tied to the Elementary and Secondary Education Act and 
other federal laws. Virtually every program has its own 
application process, separate or duplicative reporting 
requirements and different eligibility criteria. It is a 
complicated system levied on our schools, and dedicating the 
time and resources necessary to navigate this bureaucratic maze 
inevitably means time and resources spent outside the 
classroom.
    To give you an idea of the magnitude of the red tape 
confronting schools, we have even created federal programs 
designed to help alleviate the myriad requirements of other 
federal programs. Only here. Initiatives like the state flex 
program and the local flex program promise relief, yet few 
states or school districts have signed up because of the 
additional paperwork these programs require or simply because 
these programs fail to offer the flexibility schools 
desperately need.
    Clearly, a one-size-fits-all approach doesn't work, 
resulting in frustration among parents and educators and missed 
opportunities for students. If we are going to move forward in 
education, Washington has to move in a new direction. States 
and schools should be able to set their own innovative 
priorities and receive maximum flexibility to advance those 
priorities.
    If a school determines greater resources are better spent 
on reading or new technologies, then it should be free to 
adjust its budget to reflect the reality of its classrooms. 
This doesn't mean schools and states are left unaccountable for 
how federal dollars are spent. Indeed, taxpayers should know 
where their hard-earned dollars are going and whether those 
dollars are achieving results.
    However, we must not allow the need for transparency and 
accountability to become a roadblock to local innovation. I am 
confident we can provide taxpayers the accountability they 
deserve while also offering schools the flexibility they need 
to help students succeed.
    That is why your testimony today is so important. This is 
our first of many opportunities to consider specific reforms to 
help fix what is broken in current law. Your personal 
experiences in your local communities will help us to strike 
the proper balance between serving the interests of students 
and the concerns of the taxpayers.
    As we have learned, education is critical to the strength 
of our workforce and the future success of our children. I look 
forward to working with you to help ensure every child has 
within their reach a quality education.
    And let me say at this point, I would yield to Mr. Miller. 
As I pointed out earlier, he is en-route. So let me just 
continue here with some formalities and say pursuant to 
committee Rule 7-C, all committee members will be permitted to 
submit written statements to be included in the permanent 
hearing record. And without objection, the hearing record will 
remain open for 14 days to allow statements, questions for the 
record and other extraneous material referenced during the 
hearing to be submitted in the official hearing record.
    I will take this opportunity now to introduce our 
distinguished panel of witnesses. Dr. Janet Barresi was sworn 
in as Oklahoma's state superintendent of public instruction on 
January 10, 2011. After working in the Harrah and Norman public 
school systems as a speech pathologist, Dr. Barresi served as a 
dentist for 24 years, earning the Thomas Jefferson Citizenship 
Award for active community service.
    In 1996, she returned to the field of education as a 
superintendent of Independence Charter Middle School, 
Oklahoma's first charter school. She was also asked to start 
Harding Charter Preparatory High School, where she served as 
board president.
    Dr. Gary Amoroso was named superintendent of the Lakeville 
Area Public Schools in the fall of 2001. Dr. Amoroso began his 
career in 1977 as a social studies teacher in Waukesha, 
Wisconsin School District.
    Gary, I didn't know you came from Wisconsin.
    I have got two confessions here. Gary is my superintendent 
in Lakeville, Minnesota. He served as assistant principal, 
principal, director of educational services and superintendent 
in various Wisconsin school districts before relocating, 
wisely, to Lakeville, Minnesota. Dr. Amoroso will become the 
new executive director of the Minnesota Association of School 
Administrators in July.
    And we wish you great success in that change.
    Mr. Yohance Maqubela serves as the chief operating officer 
of the Howard University Middle School of Mathematics and 
Science. Prior to joining the school, Mr. Maqubela was managing 
director of the Courtland Business Development Group, a 
boutique economic development firm based in New York City. He 
also served as the youngest executive director in the history 
of the Interracial Council for Business Opportunity, New York 
City's oldest non-profit economic development firm.
    And Dr. Terry Grier became the Houston Independent School 
District superintendent of schools in 2009. Before coming to 
Houston, Dr. Grier served as a superintendent of the San Diego 
Unified School District for 18 months and superintendent of the 
Guilford County Schools in Greensboro, North Carolina for 
almost 8 years. Dr. Grier is especially well-regarded for his 
work in reducing high school dropout rates with innovative 
programs for at-risk students.
    Welcome to you all. And it is indeed a distinguished panel 
of experts. We are looking forward to your testimony. I will 
remind you that you have a little black box there in front of 
you. It is a light system. When you start your testimony, a 
green light will come on, indicating that you have 5 minutes 
for your testimony. After 4 minutes, the yellow light will come 
on. And after 5 minutes, a red light. And I would ask you to 
start to wrap up your testimony if you have not already gotten 
to that point by the time the red light--red light comes on.
    And again--pardon me? Okay. And we are having continuing 
discussions here. In keeping with the aforementioned plan, Mr. 
Miller will make his opening remarks following the testimony of 
the witnesses.
    So, Dr. Barresi, you are recognized.
    [The statement of Mr. Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Good morning and welcome. I'd like to thank our witnesses for being 
with us today.
    Over the last several months, our committee has been actively 
examining the current state of education in the nation. We have 
listened to state and local leaders who are working to improve the 
quality of education our children receive. Through a series of 
hearings, we have heard stories of both challenges and opportunities 
facing schools.
    The opportunities are found in the determination of countless 
individuals who realize our current system is failing our children and 
are fighting to do something about it. As a result, parents, 
grandparents, teachers, reformers, and community leaders are shining a 
bright light on a broken system and pursuing real change that puts 
children first.
    The challenges, unfortunately, are in many ways found in an 
education bureaucracy resistant to the very kind of meaningful reforms 
people are trying to achieve. While well-intended, policymakers have 
over the years added layers of mandates and regulations that weigh down 
our nation's schools. Every federal tax dollar spent should provide 
results, but we must ensure that the regulatory burdens don't outweigh 
the benefits of federal assistance.
    Today, the Department of Education administers 90 programs tied to 
the Elementary and Secondary Education Act and other federal laws. 
Virtually every program has its own application process, separate or 
duplicative reporting requirements, and different eligibility criteria.
    It's a complicated system levied on our schools, and dedicating the 
time and resources necessary to navigate this bureaucratic maze 
inevitably means time and resources spent outside the classroom.
    To give you an idea of the magnitude of the red tape confronting 
schools, we have even created federal programs designed to help 
alleviate the myriad requirements of other federal programs. 
Initiatives like the State Flex Program and the Local-Flex Program 
promise relief, yet few states or school districts have signed up 
because of the additional paperwork these programs require, or simply 
because these programs fail to offer the flexibility schools 
desperately need.
    Clearly a one-size-fits-all approach doesn't work, resulting in 
frustration among parents and educators and missed opportunities for 
students. If we are going to move forward in education Washington has 
to move in a new direction.
    States and schools should be able to set their own innovative 
priorities and receive maximum flexibility to advance those priorities.
    If a school determines greater resources are better spent on 
reading or new technologies, then it should be free to adjust its 
budget to reflect the reality of its classrooms.
    This doesn't mean schools and states are left unaccountable for how 
federal dollars are spent. Indeed, taxpayers should know where their 
hard-earned dollars are going and whether those dollars are achieving 
results. However, we must not allow the need for transparency and 
accountability to become a roadblock to local innovation. I am 
confident we can provide taxpayers the accountability they deserve 
while also offering schools the flexibility they need to help students 
succeed.
    That is why your testimony is so important. This is our first of 
many opportunities to consider specific reforms to help fix what is 
broken in current law. Your personal experiences in your local 
communities will help us strike the proper balance between serving the 
interests of students and the concerns of the taxpayers.
    As we've learned, education is critical to the strength of our 
workforce and the future success of our children. I look forward to 
working with you to help ensure every child has within their reach a 
quality education.
    I will now recognize my colleague George Miller, the senior 
Democratic member of the committee, for his opening remarks.
                                 ______
                                 

   STATEMENT OF DR. JANET BARRESI, SUPERINTENDENT OF PUBLIC 
      INSTRUCTION, OKLAHOMA STATE DEPARTMENT OF EDUCATION

    Ms. Barresi. Chairman Kline and honorable members of the 
committee, I am pleased to offer testimony today on education 
reform and to address how I believe we can better promote 
flexibility and innovation. I took office in January, amid a 
bipartisan groundswell of support in Oklahoma for education 
reform. Most Oklahomans recognize we are in a crisis in 
education in our state.
    In March, we learned that nearly 43 percent of first-time 
freshmen who entered Oklahoma's public colleges in the fall of 
2009 were not prepared for college. In January, results from 
the 2009 national assessment of educational progress showed 
that 72 percent of Oklahoma fourth graders taking the test and 
75 percent of eighth graders taking the test failed below 
proficient in science. And research by Stanford economist, Eric 
Hanushek,that compared top-performing math students all over 
the world showed that Oklahoma ranked far down on the list near 
developing or struggling nations like Bulgaria, Chile and 
Thailand.
    These results are like a dash of cold water. We understand 
mediocre doesn't cut it anymore. And we are taking action.
    Just 3 weeks ago, I launched the three R agenda, a 
commitment to new fundamentals for the 21st century. The new 
three R for our state's future are rethink, restructure and 
reform. Rethink is a complete reassessment of how we are 
delivering education to empower parents, children and teachers 
and to embrace new tools like digital learning.
    Restructure involves a transformation of Oklahoma State 
Department of Education. I will focus more on the third R, 
reform, because it is the primary reason I am here today.
    We are now at the half-way point in our state's annual 
legislative session, and significant progress has been made on 
a number of reform bills. It appears we will implement a 
grading system for schools and school districts and annual A 
through F report cards, just like students receive, so that 
parents can determine how a school is performing without having 
to interpret obscure or confusing metrics.
    We will also likely end social promotion after the third 
grade so students aren't entering their most critical learning 
years unprepared. And I am urging passage of legislation 
enacting tuition tax credits in Oklahoma to offer parents more 
and better choices. Under the legislation, business and 
individuals could qualify for tax credits for contributions to 
eligible scholarship-granting organizations. And those 
organizations in turn would offer scholarships to qualifying 
families in need.
    But just as we embark on legislative implementation of the 
three R agenda, we are mindful of potential obstacles if the 
Federal Government is not--is too inflexible. A few examples: 
Under the current implementation of No Child Left Behind, the 
adequate yearly progress yardstick evaluation is rudimentary 
and does not provide meaningful information to parents. But 
most importantly, it does not recognize the ultimate goal of 
college and career-ready status for all students facing the 
21st century workplace.
    By contrast, Oklahoma's new A through F school report card 
system will offer easy-to-understand results for parents. And 
it is based on a number of different measurements that 
incorporate gains and improvements.
    Another example: As Oklahoma seeks to end social promotion 
after the third grade, many districts would like to fund 
portions of this effort with federal funds. But it appears that 
this would not be possible currently because of federal 
restrictions on supplementing versus supplanting.
    This demonstrates the ways in which entrenched federal 
guidelines present some barriers to innovative state policies. 
On the one hand, the U.S. Department of Education has 
guidelines that on the surface seem to offer states more 
flexibility to meet local needs. But there seems to be a 
disconnect between good intentions at the top level and what 
actually occurs in practice, such as during program audits.
    And let us consider the simple reform of tuition tax 
credits. Federal law offers parents in low-performing schools 
the opportunity to transfer to another public school. This 
isn't true choice. Oklahoma's reforms will offer parents an 
array of more choices rather than only the option of 
transferring from one public school to another. I urge reforms 
that follow this same pathway by incentivizing states to 
provide an array of options for students.
    As all participating states prepare to transition to common 
core standards, more flexibility is also needed in the use of 
federal funds for professional development that would support 
effective instructional practices. Additionally, broadening the 
scope of the designation of title programs to include a wider 
array of subject matter such as stem initiatives would help 
enable states to offer a more challenging curriculum.
    Mr. Chairman and honorable members of the committee, the 
bottom line is this: We can turn our crisis in Oklahoma into an 
opportunity, but only if we are prepared to embrace the kind of 
bold reforms that fundamentally transform our education system 
for the better and only if the Federal Government is prepared 
to work with states like ours to allow flexibility we need in 
order to innovate. Thank you.
    [The statement of Ms. Barresi follows:]

          Prepared Statement of Janet Barresi, Oklahoma State
                  Superintendent of Public Instruction

    Chairman Kline and Honorable Members of the Committee on Education 
and the Workforce, I am pleased to offer testimony today on education 
reforms and to address how I believe we can better promote flexibility 
and innovation.
    I took office in January amid a bipartisan groundswell of support 
in Oklahoma for education reform. Most Oklahomans recognize we're in 
crisis in education in our state.
    In March, we learned that nearly 43 percent of first-time freshmen 
who entered Oklahoma's public colleges in the fall of 2009 were not 
prepared for college.
    In January, results from the 2009 National Assessment of 
Educational Progress showed that 72 percent of Oklahoma fourth-graders 
taking the test and 75 percent of eighth-graders taking the test fell 
below ``proficient'' in science.
    And research by Stanford economist Eric Hanushek that compared top-
performing math students all over the world showed that Oklahoma ranked 
far down on the list near developing or struggling nations like 
Bulgaria, Chile and Thailand.
    These results are like a dash of cold water. We understand mediocre 
doesn't cut it anymore, and we're taking action.
    Just three weeks ago, I launched the 3R Agenda--a commitment to new 
fundamentals for the 21st century. The new 3Rs for our state's future 
are: Rethink, Restructure and Reform.
    RETHINK is a complete reassessment of how we're delivering 
education to empower parents, children and teachers, and to embrace new 
tools like digital learning. RESTRUCTURE involves a transformation of 
Oklahoma's State Department of Education.
    I'll focus more on the third `R'--REFORM--because it is the primary 
reason I am here today.
    We're now at the halfway point in our State Legislature's annual 
legislative session, and significant progress has been made on a number 
of reform bills.
    It appears we will implement a grading system for schools and 
school districts--an annual A through F report card just like students 
receive, so that parents can determine how a school is performing 
without having to interpret obscure or confusing metrics.
    We will also likely end social promotion after the third grade--so 
students aren't entering their most critical learning years unprepared.
    And I am urging passage of legislation enacting tuition tax credits 
in Oklahoma to offer parents more and better choices. Under the 
legislation, business and individuals could qualify for tax credits for 
contributions to eligible scholarship-granting organizations, and those 
organizations, in turn, would offer scholarships to qualifying families 
in need.
    But just as we embark on legislative implementation of the 3R 
Agenda, we are mindful of potential obstacles if the federal government 
is too inflexible. I am also hopeful that, while policymakers debate 
the reauthorization of No Child Left Behind, reformers will follow the 
lead of states like Oklahoma.
    A few examples.
    Under the current implementation of No Child Left Behind, the 
Adequate Yearly Progress yardstick evaluation is rudimentary and does 
not provide meaningful information to parents. But most importantly, it 
does not recognize the ultimate goal of college and career ready status 
for all students facing the 21st century workplace. By contrast, 
Oklahoma's new A through F school report card system will offer easy-
to-understand results for parents, and it is based on a number of 
different measurements that incorporate gains and improvement.
    Another example: As Oklahoma seeks to end social promotion after 
the 3rd grade, many districts would like to fund portions of this 
effort with federal funds. But it appears this would not be possible 
currently because of federal restrictions on supplementing versus 
supplanting. This demonstrates the ways in which entrenched federal 
guidelines present some barriers to innovative state policies.
    On the one hand, the U.S. Department of Education has issued 
guidelines that on the surface seem to offer states more flexibility to 
meet local needs. But there seems to be a disconnect between good 
intentions at the top level and what actually occurs in practice.
    And let's consider the simple reform of tuition tax credits. 
Federal law offers parents in low-performing schools the opportunity to 
transfer to another public school. This isn't true choice. Oklahoma's 
reforms will offer parents an array of more choices--rather than only 
the option of transferring from one public school to another. I urge 
reforms that follow this same pathway by incentivizing states to 
provide an array of options for students.
    As all participating states prepare to transition to Common Core 
curriculum standards, more flexibility is also needed in the use of 
federal funds for professional development that would support effective 
instructional practices. Additionally, broadening the scope of the 
designation of Title programs to include a wider array of subject 
matter, such as STEM initiatives, would help enable states to offer a 
more challenging curriculum.
    Mr. Chairman and honorable members of the committee, the bottom 
line is this: we can turn our crisis in Oklahoma into an opportunity, 
but only if we are prepared to embrace the kinds of bold reforms that 
fundamentally transform our education system for the better--and only 
if the federal government is prepared to work with states like ours to 
allow the flexibility we need in order to innovate.
    Thank you.
                                 ______
                                 
    Chairman Kline. Thank you.
    Dr. Amoroso, you are recognized.

 STATEMENT OF DR. GARY AMOROSO, SUPERINTENDENT, LAKEVILLE AREA 
                         PUBLIC SCHOOLS

    Mr. Amoroso. Chairman Kline, Ranking Member Miller and 
members of the committee, it is my honor to testify today. And 
I am reporting from a public school administrator's 
perspective. My name is Gary Amoroso, and I currently serve as 
the superintendent of the tenth largest school district in 
Minnesota, the Lakeville Area Public Schools, home of Chairman 
Kline.
    We are a district of 11,048 students located about 25 miles 
south of the twin cities of Minneapolis and St. Paul. I speak 
to you from my 34 years as an educator, which include 27 years 
as a school administrator. I am here to testify about the 
reauthorization of the No Child Left Behind legislation and 
present personal insights and local impact. Before I begin, 
however, I would like to make my beliefs about education 
perfectly clear.
    I believe in accountability. And I believe in opportunities 
for all students to achieve academic success. I have dedicated 
my career to this mission. And the testimony I bring to you 
today comes directly from my life's passion.
    From an assessment standpoint, the most troubling aspect of 
the current system is its dependence on a single standardized 
assessment to determine a school's adequate yearly progress. 
The goal of increasing the overall number of students 
proficient in reading and mathematics is certainly admirable. 
Further, the subsequent culture of accountability has resulted 
in greater attention to individual student needs.
    However, the use of a single summative test as an indicator 
of a school's progress misses the underlying intent of the law. 
By focusing on proficiency, schools that implement innovative 
changes in delivery models or research-based strategies to meet 
individual needs often go unrewarded.
    In one of our Lakeville schools, for example, math 
instruction was restructured through additional staff time and 
professional development to meet the needs of struggling ELL 
students and resulted in significant achievement gains. Under 
the current accountability model, the school retains the label 
of a failing school and was unable to continue this program due 
to funding restrictions. Reauthorization to recognize the fact 
that education is not simply about getting 100 percent of our 
students over an artificial bar.
    The latest research in assessment suggests its purpose is 
to not simply offer a summative indication of what has been 
learned. It is to provide an understanding of what is yet to be 
learned and how to best go about learning it. This is an 
important distinction.
    The accountability model should reflect that purpose, 
shifting from summative measures to growth-based assessments 
that identify student needs, set individual growth goals and 
track progress towards those goals. We have implemented these 
measures locally, and our students have made remarkable 
progress. Again, let me stress the importance of success in 
learning for all students.
    From a funding standpoint, the current system of sanctions 
for Title I schools has been especially frustrating. It has 
resulted in a diversion of dollars from individual student 
assistance programming to mandatory set-asides that are often 
unused. This eliminates any flexibility that districts may have 
to use the funds.
    For example, over the past 2 years, three of our elementary 
schools have been placed on the in need of improvement list, 
resulting in mandatory set-asides. Over those 2 years, 1,722 
students have had the option to transfer to another school. 
Only one student opted to do so and declined the right to 
receive funded transportation.
    As a result, a substantial portion of the funding was 
unused for its original intent of providing additional academic 
support. I do not believe this is in the best interest of our 
students.
    In the absence of set-asides, school districts could better 
meet the individual needs of students through innovative 
programming such as a responsed innovation program, curriculum-
based formative assessments and professional learning 
communities. These programs provide a means to identify student 
needs and most advantageous approach to meeting these needs, 
but come at an expense.
    In Lakeville, these programs have been implemented at three 
schools only through grant funding. I say with all certainty 
that students in Lakeville would benefit if we had the 
flexibility to fund these programs.
    Reauthorization to revisit the system of sanctions based on 
proficiency to allow districts to focus on student-centered 
needs and to make allocation decisions free of mandatory set-
asides. This, in effect, offers local control to educators to 
make decisions, which truly allows all students to succeed.
    I do understand and appreciate the time constraints of the 
committee in making modifications to the law. I respectfully 
request you to seriously consider that schools need a 
reauthorization relief now. I am very appreciative of this 
opportunity to provide testimony to the committee and for its 
willingness to reconsider improvements in the No Child Left 
Behind legislation.
    I will consider it a privilege to respond to any question 
that you may have. Thank you.
    [The statement of Mr. Amoroso follows:]

       Prepared Statement of Dr. Gary M. Amoroso, Superintendent,
                     Lakeville Area Public Schools

    Chairman Kline, Ranking Member Miller and Members of the Committee: 
It is my honor to testify today and I am reporting from a public school 
administrator's perspective.
    My name is Gary Amoroso and I currently serve as the superintendent 
of the tenth largest school district in Minnesota, the Lakeville Area 
Public Schools, home of Chairman Kline. We are a district of 11,048 
students located about 25 miles south of the Twin Cities of Minneapolis 
and St Paul. I speak to you from my 34 years as an educator, which 
include 27 years as a school administrator.
    I am here to provide testimony about the reauthorization of the No 
Child Left Behind Legislation and present personal insights about local 
impact. Before I begin, however, I would like to make by beliefs about 
education perfectly clear--I believe in accountability and I believe in 
opportunities for all students to achieve academic success. I have 
dedicated my career to this mission and the testimony I bring to you 
today comes directly from my life's passion.
    From an assessment standpoint, the most troubling aspect of the 
current system is its dependence on a single standardized assessment to 
determine a school's adequate yearly progress. The goal of increasing 
the overall number of students proficient in Reading and Mathematics is 
certainly admirable. Further, the subsequent culture of accountability 
has resulted in greater attention to individual student needs. However, 
the use of a single summative test as an indication of a school's 
``progress'' misses the underlying intent of the law.
    So by focusing solely on proficiency, schools that implement 
innovative changes in delivery models or researched based strategies to 
meet individual needs often go unrewarded. In one Lakeville school, for 
example, math instruction was restructured through additional staff 
time and professional development to meet the needs of struggling ELL 
students and resulted in significant gains in achievement. Under the 
current accountability model, the school retained the label of a 
failing school and was unable to continue this program due to funding 
restrictions.
    Reauthorization should recognize the fact that education is not 
simply about getting 100% of students over an artificial bar. The 
latest research in assessment suggests its purpose is not to simply 
offer a summative indication of what was learned but to provide an 
understanding of what is yet to be learned and how to best go about 
learning it. This is an important distinction. The accountability model 
should reflect that purpose, shifting from summative measures to 
growth-based assessments that identify student needs, set individual 
growth goals, and track progress towards those goals. We have 
implemented these measures locally and our students have made 
remarkable progress. Again, let me stress the importance of success in 
learning for ALL students.
    From a funding standpoint, the current system of sanctions for 
Title-I schools has been especially frustrating. It has resulted in a 
diversion of dollars from individual student-assistance programming to 
mandatory set-asides that are often unused. This eliminates any 
flexibility that districts may have to use the funds.
    For example, over the past two years, 3 elementary schools have 
been placed on the ``In Need of Improvement'' list resulting in a 
mandatory set-aside. Over these two years, 1722 students have had the 
option to transfer to another school. Only one student opted to do so 
and declined the right to receive funded transportation. As a result, a 
substantial portion of the funding was unused for its original intent 
of providing additional academic support. I do not believe this is 
serving the best interest of our students.
    In the absence of set-asides, school districts could better meet 
the individual needs of students through innovative programming such as 
the Response to Intervention approach, curriculum-based formative 
assessments, and professional learning communities. These programs 
provide a means to identify student needs and the most advantageous 
approach to meet these needs, but come at significant expense. In 
Lakeville, these programs have been implemented at three schools only 
though grant funding. I say with certainty that ALL students in 
Lakeville would benefit if we had the flexibility in funding to provide 
these programs.
    Reauthorization should revisit the system of sanctions based on 
proficiency to allow districts to focus on student-centered needs and 
to make allocation decisions free of mandatory set-asides. This, in 
effect, offers local control to educators to make decisions, which 
truly allow all students to succeed. I do understand and appreciate the 
time constraints of the Committee in making modifications to the law. I 
respectfully request you to seriously consider that schools need 
reauthorization relief now.
    I am very appreciative of this opportunity to provide testimony to 
the Committee and for its willingness to consider improvements in the 
No Child Left Behind Legislation. I will consider it a privilege to 
respond to any questions you may have.
                                 ______
                                 
    Chairman Kline. Thank you.
    Mr. Maqubela, you are recognized.

STATEMENT OF YOHANCE MAQUBELA, CHIEF OPERATING OFFICER, HOWARD 
      UNIVERSITY MIDDLE SCHOOL OF MATHEMATICS AND SCIENCE

    Mr. Maqubela. Good morning, Chairman Kline, Ranking Member 
Miller, members of the committee and invited guests. My name is 
Yohance Maqubela, and I am the chief operating officer of the 
Howard University Middle School of Mathematics and Science, 
affectionately known as MS-2, a fully authorized District of 
Columbia public charter school serving grade sixth through 
eighth.
    As many of us are aware or who have seen the documentary, 
``Waiting for Superman,'' when compared against the other 50 
states, students in the District of Columbia face enormous 
challenges. I am here today to speak a little bit about the 
possibilities that exist when we give schools and school 
systems greater flexibility and what more could be done if we 
were to go even further.
    The primary principle underpinning MS-2s foundation is the 
belief that all students should have a truly equal opportunity, 
not just to any education, but to a top-flight, phenomenal 
education, regardless of their individual life circumstances. 
Through the flexibility provided to us through our charter 
legislation, we have been able to create a truly unique 
educational model for our student population that takes into 
account and addresses these specific circumstances without 
compromising our commitment to the highest levels of academic 
excellence.
    So what is this program, and how do we use our flexibility 
to make it truly innovative? First and foremost is our 
partnership with a major research university. In creating our 
school, its founder, Dr. Hassan Minor, drew on all of the 
collective intellectual capital of the Howard University 
community to ensure that no design element was overlooked. In 
practice, this forward-thinking model translates into a 
synergistic relationship where over 50 university graduate and 
undergraduate students work in our classrooms as student 
interns.
    Despite the fact that our academic program is extremely 
rigorous, nearly two-thirds of our students come to us in the 
sixth grade performing, not just slightly below grade level, 
but woefully below grade level with many of them literally 
coming to us as beginning readers. To correct this, the 
traditional 6-hour day, 5 days a week, 180 days of the year is 
terribly insufficient. Since we are own our local education 
agency, we have the power to create a truly dynamic program 
that includes a longer school day, Saturday academy as well as 
summer academy.
    Our longer school day includes a mandatory extended day 
component where we operate our stem connections program. This 
engages our students in practical applications of the various 
scholarly disciplines they study through the course of the 
regular day. University graduate and undergraduate students and 
professors, along with professionals from the community at 
large, come in and teach courses such as engineering design and 
technology, architecture, robotics, nanotechnology, digital 
media, aerospace engineering and computer science, just to name 
a few.
    Our stem connection program was so impressive that recently 
our school received major funding from Google to build a state-
of-the-art computer automated design and manufacture laboratory 
patterned after the renowned MIT fab lab. Trust me when I tell 
you that the details of our success are far too many to list in 
the time allotted to me here. However, as a brief example, I 
submit the following.
    For the past 3 years, MS-2 has received the most awards and 
honors in the D.C. city-wide science fair, including this past 
Saturday where five of our six participants placed. For the 
past 2 years, MS-2 students have won the D.C. city-wide 
spelling bee and have gone on to represent the District of 
Columbia in the Scripps National Spelling Bee. For the past 3 
years, MS-2 students have won the regional Sprint solar car 
competition and have placed in the national finals for this 
competition. And for the past 2 years, MS-2 has been the only 
D.C. public or public charter school team to make it to the 
state finals for the middle school math counts competition.
    In fact, in 2006, when visited by the then director of the 
National Science Foundation, Dr. Arden Bennett, he was so 
impressed with our model that he tasked his media department to 
create a documentary film featuring the school's program. 
Clearly, no singular model is the answer to fixing our nation's 
entire educational crisis. However, I hesitate to think where 
our program would be if we did not have the flexibility 
permitted.
    Most likely, it would mean that we would not have Ms. 
Kimberly Worthy, an uncertified, yet highly qualified teacher, 
who was D.C.'s first state teacher of the year from a charter 
school. Nor would we be able to have Mr. Wesley Ellis as chair 
of our social studies department. While only in his third year 
of the profession, Mr. Ellis is such a phenomenal teacher, that 
when three members of the executive council of the Boeing 
Company visited his classroom last year, he was invited to 
attend space camp, even though such invitations were previously 
restricted to math and science teachers exclusively.
    While we have clearly been able to demonstrate our success, 
even in the current environment, we feel that with changes, we 
could go even further, as we are still hampered by the 
deficiencies inherent in the No Child Left Behind legislation 
as it currently exists.
    In its current form, the use of the--as a sole measure of 
advancement of determining whether a school is failing or not, 
the use of adequate yearly progress is simply insufficient when 
taking into account that many charter schools and other school 
systems start, not in elementary school, but in middle school 
to be able to amend problems that have existed over 6 years. 
And to try to amend those in only 7 months is way off mark.
    Middle schools and other schools that start after 
elementary should be granted adequate time to truly work with 
their new students before judging the effectiveness of their 
programs. Also, the desire to see schools test high in math and 
reading comes at the detriment of other vital subject areas. 
Students from the truly best schools can do more than read and 
perform math on grade level. They are well-rounded human 
beings. And changes to the legislation need to reflect that.
    Finally, millions of students across this country are 
currently being unintentionally shortchanged by adults who 
believe they are part of the solution. This is because the 
national conversation around urban educational reform is 
centered upon fixing the lowest standard as opposed to 
attaining the highest standard. In the global arena which our 
children live and will compete, it is not enough just to be on 
grade level. Our children must master their studies. And the 
only way to guarantee this is to ensure that all students are 
instructed by properly skilled professionals who believe in 
their students' greatness.
    At its core, MS-2 was founded out of commitment to service. 
And in deciding to expand upon its nearly 150-year legacy and 
do its part to improve the K-12 education, Howard University 
invoked a gold standard. And in the short period of time, MS-2 
has proven that with the proper flexibility and proper support, 
anything is possible.
    Thank you for your time. And I will be happy to answer any 
of your questions.
    [The statement of Mr. Maqubela follows:]

  Prepared Statement of Yohance C. Maqubela, Chief Operating Officer, 
       Howard University Middle School of Mathematics and Science

    Good morning Chairman Kline, members of the Committee and invited 
guests. My name is Yohance Maqubela, and I am the Chief Operating 
Officer for the Howard University Middle School of Mathematics and 
Science (MS)2, a fully authorized District of Columbia public charter 
school serving grades 6 through 8.
    In the prestigious tradition of Howard University, (MS)2 provides 
an educational experience of exceptional quality for a diverse middle 
school student population with high academic potential. Located 
directly on Howard University's main campus, as a non-selective school, 
(MS)2 opens its doors to students regardless of their past academic 
performance, social-economic condition, race or ethnicity, or learning 
style. Through an educational model that is student-centered and 
inquiry-based, (MS)2 creates an environment that is engaging, 
nurturing, fun, and safe for the academic risk-taking needed to master 
rigorous scholarly disciplines.
    The primary principle underpinning (MS)2's foundation is the belief 
that all students should have a truly equal opportunity, not just to 
any education, but to a top-flight education, regardless of the various 
factors that have shaped their lives. Through the flexibility provided 
in charter school legislation, we have been able to create a truly 
unique educational model for our student population that takes into 
account and addresses the specific circumstances that have shaped their 
lives, without compromising our commitment to the highest levels of 
academic excellence.
    So, what is our program, and how do we use this flexibility to make 
it truly innovative? First, and foremost, is our partnership with a 
major research university. Though we are a separate legal entity from 
Howard University, for all intents and purposes, we are a full part of 
the Howard University family. In creating our school, its founder Dr. 
Hassan Minor, a Senior Vice President at Howard University, was able to 
draw on the collective intellectual capital of the University community 
to ensure that no design element, academic or otherwise, was 
overlooked. Input from the School of Education, College of Engineering, 
Architecture, and Computer Science, and School of Social Work was used 
to create a school of academic excellence where all students can 
thrive. In practice, this forward-thinking model translates into a 
synergistic relationship where annually, over 50 Howard University 
graduate and undergraduate students work in our school as interns, 
ensuring that each of our teachers has at least one part-time teaching 
assistant who is either an education major or is pursing a degree in 
the same subject as the class in which he or she works. Moreover, (MS)2 
students have the ability to personally interact with university 
students, faculty, and staff on a daily basis, all while being educated 
on an elite college campus.
    On such a campus, our students have the added benefit of being able 
to participate in the many special events, lectures, and visits of 
distinguished guests. All of this goes into creating middle school 
students who are not only educated for success, but also confident in 
interacting with those who have attained success and stature.
    Possibly the greatest demonstration of the flexibility created by 
the charter model is the fact that we are our own Local Education 
Agency (LEA). As such, the power to create the most dynamic academic 
program for our specific student population, and adjust it at any point 
in time as deemed necessary, rests in the hands of those who are best 
equipped: the faculty. Despite the fact that incoming students are not 
required to demonstrate past academic success, or a particular degree 
of scholarly aptitude to gain admission, the academic program is 
extremely rigorous, and designed to prepare middle school students for 
the highest levels of success in high school, college, and their varied 
professional pursuits. However, with nearly two thirds of our students 
coming to us performing woefully below grade level in the core academic 
areas, it is clear that the traditional six-hour day, five days a week, 
180 days of the year is terribly insufficient. Thus, our program 
contains a longer school day, which affords two additional academic 
periods per day, a Saturday Academy, and a Summer Academy. Further, we 
provide every student and every teacher with the most appropriate 
resources, including a plethora of school-based instructional 
technology and a two-to-one computer-to-student ratio that puts a 
computer in every student's home allowing access to an online version 
of his or her specific academic program.
    Our longer school day includes a mandatory component where we 
operate our S.T.E.M.-Connections Program. Through this program our 
students engage in practical applications of the various scholarly 
disciplines that they study throughout the course of the traditional 
day. University graduate students and professors, along with 
professionals from the community at large teach such courses as 
Engineering Design and Technology, Nanotechnology, Architecture, 
Robotics, Digital Media, Aerospace Engineering, and Computer science, 
just to name a few. Our S.T.E.M.-Connections program is so impressive 
that recently our school received major funding from Google to build a 
state-of-the-art Computer Automated Design and Manufacture Lab, 
patterned after the renown M.I.T. Fab Lab.
    Trust me when I tell you that the details of our success are far 
too many to list in the time allotted to me today. However, as a brief 
sample I submit the following: for three years (MS)2 has received the 
most awards and honors in the D.C. Citywide Science Fair, including 
this past Saturday, 2 April 2011, five of our six participants winning 
awards; for the past two years an (MS)2 student has won the D.C. 
Citywide Spelling Bee and gone on to represent the District in the 
Scripts National Spelling Bee; for the past three years (MS)2 has won 
the Regional Sprint Solar Car Competition and gone on to place in the 
National Finals; and for the past two years (MS)2 has been the only 
public or public charter school team to make it to the State Finals for 
the middle school MATHCOUNTS competition. In short, over the past four 
years, no other public or public charter school has been as awarded in 
competitions on a regional or national basis. In fact, in 2006, when 
then Director of the National Science Foundation, Dr. Arden Bement, Jr. 
visited our school, he was so impressed that he tasked his media staff 
to create a documentary film (which was completed last year) about the 
school highlighting our program as a national model of how to best use 
technology in the instruction of mathematics and science.
    In addition to attending a school with an excellent academic 
program, in order for students from this nation's most impoverished 
urban areas to attain the highest levels of success in school and in 
their future professional lives, it is important that they see and 
interact with individuals who have already attained the most advanced 
levels of the excellence that they aspire to. To this end, it is part 
of (MS)2's model to provide opportunities where our students can 
regularly meet, hear from, and interact with the dynamic people who 
shape the world around them. Individuals such as US Secretary of 
Education Arne Duncan, his British counterpart Education Secretary 
Michael Gove, radio personality Mr. Tom Joyner, Chemistry and Physics 
Nobel Laureate Dr. Ivar Giaver, acclaimed actress Ms. Cicely Tyson, and 
Chairman of Citigroup Mr. Richard Parsons, are just a few of the movers 
and shakers who have visited our school.
    Clearly, no singular model is the answer to fixing our nation's 
entire educational crisis. However, I am hesitant to think of where our 
program would be if it were not for the flexibility permitted. I am 
sure that it would mean that we would not have Ms. Kimberly Worthy, an 
uncertified yet Highly Qualified teacher who was D.C.'s first State 
Teacher of the Year from a charter school. Nor would we be able to have 
Mr. Wesley Ellis as Chair of our Social Studies Department. While only 
in his third year of the profession, Mr. Ellis is such an outstanding 
teacher that when three members of the Executive Council from the 
Boeing Company visited his class last year, he was invited to attend 
Space Camp even though such invitations were previously reserved 
exclusively for math and science teachers. Again, these are just two 
further examples, from a nearly endless list, of how such flexibility 
has allowed our school to shine.
    In regard to the No Child Left Behind legislation, in its current 
form it is flawed in its sole use of `adequate yearly progress' (as it 
is presently defined) to determine whether or not a school system is 
failing. When taking into account that many charter school Local 
Education Agencies do not start in elementary school, but rather, like 
us, begin to receive their students in middle school, or high school, 
it is not reasonable to require that all students can be completely 
remediated in the seven prior to their assessment. In fact, how can a 
school be judged on annual progress in the first year that a student 
enrolls? Rather, a school should be assessed on how much its students 
grow over the course of the year. Secondly, the desire to see schools 
test high in math and reading comes at the detriment of so many other 
vital subject areas. Students from the truly best schools can do more 
than read and perform math on grade level. They are well-rounded and 
well-versed in all of the disciplines. Changes to NCLB need to be 
reflective of this. Finally, millions of students across this country 
are unintentionally shortchanged by the adults who believe they are 
part of the solution. This is because the national conversation around 
urban educational reform is centered upon fixing the lowest standard 
and not attaining the highest standard. In the global arena in which 
our children live and compete, it is not enough just to be on grade 
level. Our children must command their studies. The only way to 
guarantee this is to ensure that all students are being instructed 
properly skilled professionals who believe in their greatness.
    At its core, (MS)2 was founded out of a commitment to service. For 
nearly 150 years Howard University has been serving some of this 
nation. This service has not been delivered at some substandard or 
mediocre level, but rather, at a high standard of excellence. So in 
deciding to do its part in improving K-12 education, Howard invoked the 
Gold Standard. And in a short period of time, the Howard University 
Middle School of Mathematics and Science has established itself as a 
leading institution on the national landscape of public education.
                                 ______
                                 
    Chairman Kline. Thank you.
    Dr. Grier, you are recognized.

     STATEMENT OF DR. TERRY GRIER, SUPERINTENDENT HOUSTON 
                  INDEPENDENT SCHOOL DISTRICT

    Mr. Grier. Good morning, Chairman Kline, Congressman Miller 
and members of the committee.
    And a special good morning to Susan Davis, who we used to 
work together when I was superintendent in San Diego.
    I am Terry Grier, superintendent of the Houston Independent 
School District in Houston, Texas. I represent a school board 
and 203,000 students. We are the nation's seventh largest 
school system and the largest school system in Texas.
    Having served as superintendent for multiple districts, I 
have seen firsthand wonderful accomplishments the hundreds of 
millions of dollars in federal education grants have supported 
and how many children have benefited from this important 
financial aid. The traditional focus of federal education aid 
on disadvantaged, minority, students with disability and 
language minority students remains the appropriate federal 
priority. And I strongly agree with the attention directed to 
their disaggregated academic performance and the admirable task 
of closing the achievement gap.
    Supporting and improving instruction and placing a quality 
teacher in every classroom and an outstanding principal in 
every school are the key to educational reform. And while there 
is no one best way to accomplish it, I would like to spend a 
few moments of your time to tell you what we are doing in 
Houston.
    Our work, however, is impeded by various state and federal 
barriers that compromise our efforts. A major strategy in our 
district strategic direction is to transform our system and 
culture in our lowest performing schools, what we are calling 
the Apollo 20 Project.
    We began implementing Apollo 20 in nine secondary schools 
that the Texas Education Agency labeled as either failing or 
unacceptable this school year. An additional 11 struggling 
elementary schools will be added during the coming school year.
    The Apollo 20 Project is one of the most ground-breaking 
and comprehensive school turnaround projects happening in this 
country today. The turnaround strategy for this project is 
based on extensive research of successful charter schools 
conducted by Dr. Roland Fryer, a Harvard University professor 
and the director of Ed Labs.
    Dr. Fryer identified the following five strategies that 
were being used in these successful charters: human capital, 
quality principal in each school, effective teacher in each 
classroom, more instructional time, a longer school day, a 
longer school year, a cultural of high expectations and no 
excuses, high dosage tutoring and data-driven accountability. 
In these nine schools last year, we replaced all the principals 
and assistant principals in these schools.
    We required all the teachers to reapply for their jobs, 
replacing in some schools as many as 70 percent of the 
teachers. We added an hour to the school day, 2 weeks to the 
school year. We have been very clear that in 3 years, we expect 
no dropouts, 100 percent graduation and 100 percent of the 
seniors attending college.
    Now, we are just finishing our first year in this program. 
And I am very pleased to tell you that in these four high 
schools, 100 percent of the mainstream students--and these are 
students not including all special ed students--have been 
accepted to either a 2-or 4-year college.
    High-dosage tutoring, one tutor per two students--and these 
are tutoring positions that we created with the help of match 
charters out of Boston. We recruited the tutors. They come from 
all over the country to help tutor our students.
    We are also heavily engaged with a new teacher project out 
of New York and working to transform our entire human capital 
efforts in the Houston Independent School District, how we 
recruit and hire our teachers and principals, how we hold them 
accountable and evaluate their performance. We have just 
completed working with over 1,000 of our teachers to involve 
them in developing a new teacher appraisal instrument where 
approximately half of that instrument will be tied to student 
academic performance. We believe it important to involve our 
employees as we improve our schools.
    We strongly believe in implementing innovative strategies 
to transform our school system. But we believe and know that we 
must have the flexibility needed to be innovative and effective 
in raising student academic performance. And certainly, the 
Federal Government has a central role in facilitating high 
goals and performance standards and holding states and 
districts accountable for results with all students.
    If the reforms that states and districts are choosing to 
implement over time are not working, they must be held 
accountable through transparent reporting of student 
performance by sub-groups without statistical gimmicks that 
allow certain schools to avoid responsibility for their student 
outcomes. Now, we have a number of barriers, and I am going to 
just touch on one or two at the federal level and again at the 
state level.
    The biggest issue for us, one of, certainly, the biggest 
ones is our Title I, ESEA Title I program. Fifty-six percent of 
those funds have been designated as set-asides. I certainly 
recognize and realize there ought to be set-asides for 
important areas like parental involvement. I have no problem 
with that. But 56 percent of these funds being earmarked really 
ties our hands at the local level.
    Another big issue is supplemental educational services. 
School districts like ours that have such a wonderfully 
designed tutorial program that we designed ourselves is being 
affected. We cannot be a supplemental educational provider 
because of constraints of federal and state law. That just 
simply has to change.
    We have SES providers in our school district that are 
giving children cell phones and tutoring them over cell phones 
and charging $90 an hour with absolute no indication anywhere 
that those efforts are working. We also have a number of state 
barriers that I won't go into, but would be glad to answer 
because of time during the questioning period.
    I can tell you that we in Houston are up to the task of 
reforming our schools. We have a courageous school board. We 
have willing teachers that want to be involved in solving these 
deviling problems. We have to have some relief from these 
mandates, both at the federal and the state level.
    Thank you, Mr. Chairman.
    [The statement of Mr. Grier follows:]

       Prepared Statement of Dr. Terry B. Grier, Superintendent,
                  Houston Independent School District

    Good morning, Chairman Kline, Congressman Miller, and members of 
the Committee. I am Terry Grier, superintendent of the Houston 
Independent School District in Houston, Texas. I represent the School 
Board and 203,000 students. Thank you for the opportunity to testify on 
the educational reform initiative that we have undertaken in Houston 
and the impact of federal law and federal programs which both support, 
and at times, complicate those efforts.
    Having served as superintendent for multiple districts, I have seen 
firsthand wonderful accomplishments the hundreds of millions of dollars 
in federal education grants have supported and how many children have 
benefited from this important financial aid. The traditional focus of 
federal education aid on disadvantaged, minority, students with 
disabilities, and language minority students remains the appropriate 
federal priority, and I strongly agree with the attention directed to 
their disaggregated academic performance and closing achievement gaps. 
Supporting and improving instruction is the key to educational reform.
    And, while there is no one best way to accomplish it, I would like 
to spend a few moments of your time to tell you what we are doing in 
Houston. Our work, however, is impeded by various state and federal 
barriers that compromise our efforts and impact our most vulnerable 
children.
    A major strategy in our district's Strategic Direction is to 
transform our systems and culture in our lowest-performing schools 
through what we are calling Apollo 20. We began implementing Apollo 20 
in nine secondary schools that the Texas Education Agency labeled as 
either ``failing'' or ``unacceptable'' this school year. An additional 
11 struggling elementary schools will be added during the 2011-2012 
school year.
    <bullet> The Apollo 20 project is one of the most ground-breaking 
and comprehensive school turn-around projects happening in the country. 
The turn-around strategy for the Apollo 20 project is based on 
extensive research of successful charter schools conducted by Dr. 
Roland Fryer, a Harvard University professor and the director of 
EdLabs. Dr. Fryer identified the following five strategies that were 
being used in one or more successful charter schools:
    <bullet> Human Capital--Quality Principals and Effective Teachers
    <bullet> More Instructional Time--Longer School Day and Extended 
Instructional Calendar
    <bullet> Culture of High Expectations and No Excuses
    <bullet> High Dosage Tutoring
    <bullet> Data-Driven Accountability
    <bullet> We strongly believe in implementing innovative strategies 
to transform our school system, and we must have the flexibility needed 
to be innovative and effective in raising student achievement. 
Innovation is appropriate only if it is framed by the goal of improving 
student outcomes.
    <bullet> The Federal government has an essential role in 
facilitating high goals and performance standards and holding States 
and districts accountable for results with all students. If the reforms 
that states and districts are choosing to implement over time are not 
working, they must be held accountable through transparent reporting of 
student performance by subgroup without statistical gimmicks that allow 
certain schools to avoid responsibility for their student outcomes.
    At the local level, we face barriers to implementing instructional 
reforms and innovations from multiple sources. We refuse to use these 
barriers as excuses, but any effort to remove or mitigate unnecessary 
or unproductive requirements in a worthy task.
Federal Barriers
    Designing and implementing instructional activities under federal 
programs is complicated by a myriad of requirements and statutory set-
asides, as well as reservations of funds for particular activities. 
ESEA Title I provides the most striking example with the No Child Left 
Behind statutory set-asides totaling some 56% of the funds depending on 
how you add them up [1% for state administration, 1% for parental 
involvement, 4% for state-determined school improvement, 10% for 
professional development for school improvement status, 10% for 
professional development for district improvement status, 20% for SES 
and school transfers, 5% for non-qualified teacher professional 
development, and 5% at state discretion for recognition and rewards.] I 
might note that the modest flexibility built into the No Child Left 
Behind Act regarding the 20% set-aside was purposefully regulated out 
of existence under the previous administration, and during the past two 
years, the current administration has been unwilling to modify that 
over-regulation. With such a large proportion of statutorily-directed 
spending since 2001, instructional decision-making at the district and 
school level for Title I has been exceptionally challenging. Over the 
years, the amount of school level Title I allocations have been 
decreasing as more of the set-aside funding has been triggered.
    More importantly, evaluations of the implementation of the SES set-
aside requirement has demonstrated minimal results at best, yet the 
expenditure requirement lives on without the type of evidence of 
effectiveness that we can document in our supplementary programs. 
Districts should retain flexibility in the appropriate use of these 
funds, including some discretion to use those funds to provide tutoring 
to students who are performing behind as compared to their grade-level 
peers during the school day, rather than paying for after school 
tutoring to external providers whose effectiveness is unknown. In 
addition, there should be flexibility in using those funds to lengthen 
the regular instructional day and school calendar to provide students 
in struggling schools increased time for learning. In-school tutoring 
and more instructional time are two researched-based effective 
strategies that are often implemented in charter schools, yet are not 
implemented in traditional public schools. We must be bold and creative 
in adopting and infusing best practices, and have the flexibility to 
use targeted Title I funds for their implementation, rather than 
relying on external providers for that support.
    Though every superintendent that I know complains about federal 
requirements and the lack of flexibility to best utilize federal funds, 
it is important to note that some of the categorical grant requirements 
meet their desired result. For example, the Education Stabilization 
Fund under the Stimulus Act has few federal requirements, and as a 
result, a number of states cut their own state education funding 
further than necessary, and simply replaced it with Stimulus 
Stabilization Funds. Local school districts, therefore, received little 
value-added funds in the states that gamed the system. Texas, 
unfortunately, was one of those states which cut our state education 
aid, while simultaneously taking the Stabilization Funds and increasing 
the State's Rainy Day fund. Texas, however, was unable to ``offset'' 
the Stimulus Title I funds due to the categorical requirements that 
accompanied those programs.
    This experience suggests that at proper balance of requirements and 
flexibility needs to be crafted in any reauthorization. But, there are 
certainly many of the 588 requirements in just Title I Part A, 
identified by the Department of Education's Inspector General in a 
March 2006 report, could be deleted without damaging the purposes and 
benefits of the program.
State Barriers
    Federal requirements are not the only barrier to local 
instructional flexibility and innovation. The state departments of 
education impose multiple additional requirements on federal programs--
sometimes for state policy purposes and sometimes to shield themselves 
from federal program and audit questions. For example, the California 
Department of Education refused to allow my district to use our Title I 
Stimulus Funds to maintain reasonable class sizes in certain key Title 
I schools in the midst of massive state budget cuts. Frankly, I believe 
that my local academic team is much more qualified to make those 
instructional judgments than state program officers.
    Even the flexibility intended in current federal law is at times 
restricted by the state agencies. States often require categorical 
reporting of activities and funds in Title I schoolwide programs, even 
though the Act allows the commingling of these federal, state and local 
funds. This type of reasonable coordination and integration among a 
variety of funding sources and school level and district level plans is 
a worthy consideration during the reauthorization of ESEA.
    Since I am currently in the middle of cutting up to $324 million 
out of our $1.5 billion local budget, my concerns with state level 
inflexibility is probably heightened. For example, the state currently 
requires approval from the Commissioner of Education for a waiver to 
begin school early. Some of the most successful schools, including 
charter schools, such as Harlem Children's Zone and MATCH Schools in 
Boston have a longer school year.
    We recognize that there is no silver bullet to transforming public 
education. At the same time, we must be use research-based and data-
driven evidence to drive innovative transformational efforts to meeting 
the unique needs of every one of our students. The Houston Independent 
School District is committed to leading the way in closing the 
achievement gap and ensuring all of our students are prepared for 
college and careers. To do this requires more local freedom from 
current state and federal laws, regulations and guidelines with 
increased accountability for results at all levels.
    Thank you for the opportunity to speak to you today. I will be 
happy to answer any questions you may have at this time.
                                 ______
                                 
    [Supplemental material submitted by Dr. Grier follows:]

 Supplemental Information Submitted to the Committee on Education and 
                             the Workforce

                         School Meal Standards

    There is strong research that when students have a healthy 
breakfast, they have increased student academic performance. Food is a 
basic need, and we must do all that we can as stewards of the public to 
ensure that our students start their day off with a healthy meal.
    That is why I advocated for and received strong support from our 
Board of Education to implement a Breakfast in the Classroom program. 
In just the last two years this program has been expanded to serve 
students in 217 of our schools. Through Breakfast in the Classroom, we 
serve 102,360 meals a day. This school year alone will have served more 
than 18million breakfasts to HISD students.
    In addition, through our 2007 Bond Program, the Houston community 
invested in the building of a food service preparation and storage 
facility. HISD prepares school breakfasts and lunches in this facility 
and delivers prepared, nutritional meals to our school. Last year, HISD 
serves more than 42 million meals. This year, we anticipate serving 
nearly 48 million.
    Our district has seen a slight increase in the number of students 
who qualify for free or reduced meals. The chart below is reflective of 
the increase, with a larger increase in those students who qualify for 
free meals under the Federal Free and Reduced Lunch Program.

                                    STUDENTS QUALIFIED FOR FREE/REDUCED MEALS
----------------------------------------------------------------------------------------------------------------
                                             Free                   Reduced                Total F/R
               Month/Year                  eligible        %       eligible        %       eligible        %
----------------------------------------------------------------------------------------------------------------
Apr-11..................................     148684      74.01%       13426       6.68%      162110      80.69%
Apr-10..................................     142980      71.57%       16199       8.11%      159179      79.68%
Apr-09..................................     136198      68.91%       18101       9.16%      154299      78.07%
Apr-08..................................     134431      68.53%       19455       9.92%      153886      78.45%
Apr-07..................................     136902      69.01%       19327       9.74%      156229      78.76%
----------------------------------------------------------------------------------------------------------------

    USDA has proposed changes to Nutrition Standards in the National 
School Lunch and School Breakfast Programs. While we are certainly in 
favor of increasing nutrition for our students, we are concerned about 
the lack of funding to do so.
    To implement the new standards, Congress has approved an additional 
$0.06 per lunch served starting in October 2012. Our concern? We 
anticipate the cost of milk alone will increase by $0.06 per lunch 
going into next year. The effect? Food costs will have already outpaced 
the proposed reimbursement increases going into the 2012-13 school 
year.
    In addition to rising costs of milk and other food items, here is 
our estimated cost to meet USDA's proposed nutrition standards:
    Here is our estimated cost to meet proposed USDA proposed nutrition 
standards:
    <bullet> Increased cost to breakfast meals: $467,000
    1. Increased daily portions of fruit ($270,570)
    2. Increased daily portions of grains ($9,082)
    3. Increased daily portions of meat and other protein sources 
($187,677)
    <bullet> Increased cost to lunch meals: $783,000
    1. Increased daily portions of fruit and vegetables ($315,418)
    2. Increased daily portions of grains ($67,912)
    3. Increased daily portions of meat and other protein sources 
($399,670)
    <bullet> Additional cost of training hours for kitchen employees: 
$400,000
    1. Change from ``Nutrient Standard'' to ``Food-Based'' menu 
planning requires different procedures in meal preparation, serving, 
and accounting at cash register
    <bullet> Total estimated cost: $1,650,000
    From our analysis believe HISD will have at least a $1.65M gap 
between revenue and cost as a result of USDA's proposed rules.
    While we are strong advocates for providing children with 
nutritious meals, we recognize that increased nutritional standards and 
rising food costs place an increased financial responsibility on school 
districts. In these times of federal, state and local budget 
constraints, we cannot afford to have additional unfunded mandates.

                           SPECIAL EDUCATION

    1. Houston ISD received in IDEA-B ARRA entitlement $ 43,556,473 
(Formula: $42,452,708; Preschool: $1,103,765). In addition to 
allocating funds to cover personnel and contracted services costs, the 
following items with corresponding costs were purchased:
    <bullet> Districtwide special education data management system to 
provide a comprehensive, web-based online tool to develop 
Individualized Education Programs (IEP) for students with disabilities. 
This system is integrated with the student information and personnel 
information systems ($1.5 million).
    <bullet> Increased and improved access to technology with new 
computer workstations for students with disabilities. The Universally 
Designed for Learning (UDL) workstations align directly with 
recommendations made in a review of the district's Special Education 
Program ($3.5 million).
    <bullet> Districtwide access to Kurzweil 3000(tm), a comprehensive 
reading, writing and learning software for struggling readers including 
individuals with learning difficulties such as dyslexia, attention 
deficit disorder or those who are English language learners. In 
addition, Kurzweil 3000(tm) supports the principles of UDL enabling 
students of all abilities to engage with digital text ($320,000).
    <bullet> Districtwide computers and wireless mobile carts for use 
by students with disabilities in all classroom settings ($3.3 million).
    <bullet> Supplementary reading and mathematics materials that 
support the district's literacy and numeracy plans ($2.7 Million).
    <bullet> Technology, software and hardware to enhance services for 
students with disabilities ages 3-5 ($1 million).
    <bullet> Assistive technology and augmentative communication 
systems such as FM systems ($270,000).
    <bullet> Test kits and protocols to evaluate and identify students 
with disabilities ($600,000).
    <bullet> Extended school year services for students with 
disabilities based on IEPs ($2.4 million).
    These expenditures provide access to the district's curriculum to 
students with disabilities so that they can be ready for college and 
careers of their choice.

         REQUIREMENTS FOR ADDITIONAL DOCUMENTATION AND MEETINGS

    <bullet> State legislation in Texas places increased accountability 
on local school districts beyond the federal legislation and guidelines 
for serving special education students.
    <bullet> The Individuals with Disabilities Act of 2004 requires 
public schools to provide free appropriate public education in the 
least restrictive environment to students with disabilities ages 3-21. 
There are extensive guidelines for identification, eligibility, 
development of IEP, reevaluation and parental rights. Texas has 
additional requirements that exceed federal law. The district is a 
member of a coalition of school districts in the state that supports 
proposed Paper Reduction legislation.
    <bullet> The state's requirements for special education exceed 
federal requirements with many additional supplements such as ones for 
services to students with autism, transition services, and extended 
school year services. In Houston ISD, on average, a student's IEP from 
start to finish (drafting, scheduling meeting, holding meeting) can 
take approximately 6 hours per each member of the ARD committee and can 
run up to 25-30 pages. If the student requires one of the myriad of 
supplements our state requires for autism, visual impairment, extended 
school year, etc. we may be looking at 40-50 pages. In the best case 
scenario, this process takes place once a year. But for many of our 
more severely disabled students, multiple meetings necessitating 
additional time and paperwork may be warranted.
    Conservatively, here are HISD's calculations:
    <bullet> Number of students with disabilities enrolled in 2010-
2011: 16,380
    <bullet> Approximate number of ARD Committee members per student 
per meeting: 5
    <bullet> Average number of meetings per student per year: 1.3
    <bullet> Average hours per meeting (including document 
preparation): 6
    <bullet> Average hours related to ARD/IEP process for the district: 
16,380x3x1.3x6= 638,820 hours
    This does not include paper work required for transfer students, 
requests for initial evaluations, and three year reevaluations. Our 
schools are drowning in paperwork and this bill, if passed, will help 
reduce some of it.
                                 ______
                                 
    Chairman Kline. Thank you, Dr. Grier.
    Thanks to all the witnesses.
    I will now recognize my colleague, the senior Democrat on 
the committee, Mr. Miller, for his opening remarks.
    Mr. Miller. Mr. Chairman, thank you. My apologies for 
coming in late. Just sometimes in this business, you have to be 
in two places at one time. I tried, but I didn't make it.
    This morning's hearing is very exciting for me. It signals 
to me that a majority on this committee is ready to move 
forward in a meaningful way in the reauthorization of 
Elementary and Secondary Education Act. This is great news for 
our nation's children and for our communities and for our 
future.
    We have now had a series of hearings in this session of 
Congress looking at the burdens on schools. As I have said 
before, we are right to look closely at the role of the Federal 
Government in education. We are right to identify burdens on 
states and school districts and the individual schools.
    And we are right to incentivize high performance. In my 
opinion, the take-away from these hearings has been that we 
are--there is a growing consensus in this committee about what 
a great bill might look like to help strengthen our schools.
    The role of the Federal Government should be setting high 
standards for all students and establishing a strong system of 
accountability tied to those standards. We also need to 
encourage more data and data-driven decisions made by schools. 
When we have this data, then the Federal Government can step 
back and give more flexibility to states and school districts.
    Additionally, flexibility will lead to greater innovation 
as long as the end goal is always about improving students' 
outcomes. I believe high standards, strong accountability and 
data-driven decision making and local flexibility to improve 
student outcomes is a recipe for success in this 
reauthorization.
    Now we have to stop talking and act. Our students can't 
afford for us to wait any longer. And I think the testimony of 
this panel suggests that the districts and schools can't afford 
for us to wait any longer.
    Too many students in too many schools are continuing to 
fail the mark and the expectations and the needs of the parents 
and our communities. More than 7,000 students become dropouts 
every school day in this country. This adds up to over 1 
million students each year who do not graduate from high school 
with their peers.
    Thirty-one percent of the nation's high school students do 
not graduate from high school on time with a regular diploma. 
If you want to talk about job growth and economic recovery, 
reauthorize ESEA. Graduate more students college and career-
ready and increase job earnings, investments, sales and tax 
revenues. The list goes on and on.
    These hearings have made it very clear that what our 
students need to succeed isn't a mystery. Some of these 
elements were in place in No Child Left Behind. But for all of 
its flaws, the current law did help us see for the first time 
what was happening in our schools. Now we know what is 
happening, and we know we need to give schools the support and 
the resources to help spur the real change that our students 
need and to help improve and move our schools forward.
    When I talk about supports and resources, I am not just 
talking about money. I am talking about the information and the 
data so that schools and parents and students and 
administrators can make informed and smart decisions. We can't 
look back. Instead, we need to build on what we have gotten 
right and improve on what we didn't.
    There is no room for partisan politics when it comes to 
education. The status quo and failing our students and our 
future and economic stability and our global competitiveness is 
at risk. We have to take a stand as a nation that is no longer 
acceptable for some students at some schools to make gains 
while most students lag behind. If we don't hold our schools 
accountable for all of the children in their classrooms, we 
will fail our country.
    I look forward to hearing from our witnesses, which we have 
done. Excuse me. Just got a time lapse here. And I want to 
thank you for your testimony. [Laughter.]
    Thank you.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
             House Committee on Education and the Workforce

    Thank you, Mr. Chairman.
    This morning's hearing is very exciting for me. It signals to me 
that the majority on this committee is ready to move forward in a 
meaningful way with the reauthorization of the Elementary and Secondary 
Education Act.
    This is great news for our nation's children, for our communities 
and for our future.
    We've now had a handful of hearings in this session of Congress 
looking at the burden on schools.
    As I've said before, we are right to look closely at the role of 
the federal government in education.
    We are right to identify burdens on States and school districts, 
and we are right to incentivize high performance.
    In my opinion, the takeaway from these hearings has been that there 
is a growing consensus in this committee about what a great bill should 
look like to help strengthen our schools.
    The role of the federal government should be setting high standards 
for all students and establishing a strong system for accountability 
tied to those standards.
    We also need to encourage more data and more data-based decision 
making by schools.
    When we have this data, then the federal government can step back 
and give more flexibility to states and school districts.
    Additional flexibility will lead to greater innovation as long as 
the end goal is always about improving student outcomes.
    I believe high standards, strong accountability, data driven 
decision making and local flexibility to improve student outcomes is 
our recipe for success in this reauthorization.
    Now we need to stop talking and ACT. Our students can't afford for 
us to wait any longer.
    Too many students in too many schools are failing.
    More than 7,000 students become dropouts every school day in this 
country. This adds up to over one million students each year who will 
not graduate from high school with their peers; 31 percent of the 
nation's high school students do not graduate from high school on time 
with a regular diploma.
    If you want to talk about job growth and economic recovery, 
reauthorize ESEA, graduate more students college and career ready, and 
increase job earnings, investments, sales, and tax revenue. The list 
could go on and on.
    These hearings have made it very clear that what our students need 
to succeed isn't a mystery.
    Some of these elements were in place in No Child Left Behind.
    For all its flaws, the current law did help us see, for the first 
time, what was happening in our schools.
    Now that we know what is happening, we have to give schools the 
supports to help spur the real change that our students need and to 
help move our schools forward.
    We can't look back. Instead, we have to build on what we got right 
and improve on what we didn't.
    There is no room for partisan politics when it comes to education.
    The status quo is failing our students and putting our future, our 
economic stability and our global competitiveness at risk.
    We have to take a stand as a nation that it is no longer acceptable 
for some students at some schools to make gains while most students lag 
behind.
    If we don't hold our schools accountable for all the children in 
their classrooms, we fail our country.
    I look forward to hearing from our witnesses about the necessary 
changes we need to help support our schools to put all students on a 
pathway to success.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    And for the guests here and the witnesses, we all get 
caught in this trap that Mr. Miller was just talking about. For 
some reason, Congress over the years has designed a system 
which, not only requires us sometimes to be in two places at 
once, but sometimes three or more. And it turns out that it 
just doesn't work that way. The system breaks down 
occasionally.
    Mr. Miller said something that I think is worth emphasizing 
here. We have a growing consensus, I believe, in this committee 
that No Child Left Behind is failing in many ways and needs to 
be corrected. And that means we have got to move forward on 
legislation.
    We have heard repeatedly about flexibility, and we are 
going to continue to explore that today, that in a variety of 
ways, our witnesses have said that there is too many 
restrictions, we have a set-aside problem, we have other 
restrictions on schools and districts to be able to make 
rational decisions and that we clearly need some system of 
accountability. One of the larger questions is accountable for 
what, to whom.
    But obviously, there is data, to use Mr. Miller's term, 
that is going to be part of this. And assuring that we have 
enough data and the right data will be part of the ongoing 
discussions here. So I do believe that with this growing 
realization that we have to move in some of the fundamental 
pieces, we are going to be able to start moving forward as 
early as next month with stages of making some of the 
corrections that we have been talking about here today.
    Dr. Barresi, you have talked about moving to a grade system 
for your schools. And this is a system that we have seen 
popping up in other states and other places. Can you just take 
a minute or so and tell us what are you going to use to 
determine how you are going to determine what that grade is?
    Ms. Barresi. Well, I appreciate the question. And the bill 
is moving very nicely through our legislature. And I appreciate 
their devotion towards this subject as well.
    Our desire is to create a simplified grading system that 
will allow parents to understand the overall performance of 
their child's school, but then also for community members and 
chambers of commerce to be able to easily understand the impact 
of education in their overall school.
    To be specific, in the current bill going to the 
legislature, 66 percent of that assessment will be in overall 
academic achievement and test scores, if you will. That is 
about 25 percent of that number will be in the overall 
improvement of the school itself. And then 25 percent will be 
the overall improvement in the lowest quartile of students 
within that school. And so, that will allow schools to be able 
to show growth over a period of time, particularly in their 
lowest performing schools.
    Another large percentage, 34 percent, will be on whole 
school improvement such as graduation rates, participation in 
A.P. and I.D. courses, participation in SAT and ACT courses. 
Also, with the use of our improved data system that we are 
working on, we will be able to correlate those students that 
originally had scored in limited knowledge, but were now 
succeeding through high school, from middle school through high 
school.
    And so, this grading system then brings in multiple 
metrics, not just one test score. And it becomes a meaningful 
measurement for parents and for everyone.
    Chairman Kline. Thank you. It is interesting to watch that 
progress.
    Dr. Amoroso, you and I have talked so many times, I am 
almost embarrassed to ask a question because I fully know the 
answer to this, based on those many questions. So let me just 
limit it to this.
    We have talked about AYP and the restriction of the--of the 
single test. Could you just take a minute to cut to the chase 
on what that problem is that the current one test, one measure, 
one AYP and what you would like to see that change to?
    Mr. Amoroso. Thank you, Chairman. Our perspective is that 
assessment really can be looked at as a three-legged stool. One 
leg can be some type of state-driven vehicle. We look at the 
other leg really being a tool utilized by the district.
    In our district, we use the--excuse me. We use the 
measurement of academic progress, which is a standardized 
measure. We use it in grades two through eight. And what it 
does is provide us an opportunity to do a diagnostic testing of 
our children in fall. That tells us where the students' 
achievement levels are at. It also makes a prediction of where 
their achievement level needs to be in spring.
    We then do a second assessment using the measurement of 
academic progress in the late winter. And that lets us know 
what type of growth has been achieved by every student. We get 
that data immediately. That data is then used to inform 
instruction for the remainder of the year with our children.
    Our current model, when we use the MCA2s in Minnesota, our 
students take those tests in spring. We get the results the 
following fall. We have lost the opportunity to work with the 
children. That data that has been provided doesn't inform our 
decision making. And so, we believe that multiple measures is 
the way to go.
    And then the third leg of this stool is what happens in the 
classroom, the assessments that take place with our classroom 
teachers working with their children and then the communication 
that we have with our parents. We believe that the conversation 
need not be one measure that gives you a snapshot in time. We 
believe the conversation needs to be about multiple measures 
which provide an opportunity to create data, which can be used 
to help inform instruction and move the child along.
    Chairman Kline. Thank you. Thank you very much.
    Mr. Miller?
    Mr. Miller. I know we have witnesses that anticipate a 
question. This isn't going to work. Given what your testimony 
is today and what I said in my opening statement, my, sort of, 
conclusion is that the federal role should, sort of, go from an 
old Univac computer to an iPad, that this has to be much 
thinner, more efficient than in the past. And I would just like 
to comment on some of the things that I think we should 
consider in the reauthorization of the ESEA.
    One that would obviously--this bill would set high 
standards and goals for college and career-readiness of all of 
our students when they leave--and hopefully, they will leave 
high school with a diploma, that we would maintain for all 
students, including current sub-groups, that accountability, 
but with a richer index, measures that uses growth graduation 
rates, high-quality modern assessment systems. You have just 
addressed some of that--provide states, districts and schools 
with the flexibility to improve schools based upon their 
students, school, community needs, whether that is an extended 
day or wrap-around services or new curriculum.
    That is for schools and districts to make those decisions--
to support real-time data-based decision making to allow the 
Federal Government to get out of the way and support a real-
time performance-based system, ensure performance is 
transparent so the parents and communities can decide what 
their participation should be and so they understand the 
decisions that the school has made about the education of their 
children.
    And hopefully, when we look at sustainable models around 
the country, that community involvement and parental 
involvement seems to have a lot to say about sustainability 
over extended periods of time as opposed to 1-and 2-and 3-year 
wonders and that we would consolidate programs so that 
districts could better and more easily access funds, provide 
more flexibility on what can be funded, at what level and 
encourage local community partnerships that have strong, 
consistent outcome indicators to measure program successes.
    We find now in big portfolio districts, multi-faceted 
districts, you may have to have a partnership with the police 
department, with the parks and recreation, with health services 
so that you can address the needs of the students in those 
schools. And finally, and most, I think, very, very important 
that we support a professional environment for teachers and 
school leaders and let them get back to doing their jobs and 
provide them with the information and the resources they need, 
again, in real-time to make adjustments, to make decisions 
throughout the school year, not just at the end of the year or 
the beginning of the--of the next year.
    And, Dr. Grier, I would like to begin with you and just in 
terms of a comment. Each of you have sort of outlined the 
directions that you are going in. And I would just be 
interested to see if there is a possibility for a much--what I 
call a thinner federal role, serious accountability, but I 
would shift that accountability more to parents and community 
than us.
    Mr. Grier. I think that there must be a very careful blend 
of accountability and flexibility for results. And I agree with 
the comments that you have made. We also get, in public 
education across the country--I have served as superintendent 
in a number of states. It is very perplexing sometimes the 
descriptors that the Federal Government and the state 
governments use to describe effective schools.
    I know in districts where I have worked in the last three 
states I have been in, it is very hard to explain to parents 
how a school can be a failing school because it did not make 
AYP, but at the state level, it is a recognized or even called 
an exemplary school. And it is very confusing to parents when 
you--and your staff--when you are trying to discuss reform 
efforts and the need for reform.
    So we have to have accountability, but we also have to have 
the flexibility to do what we need to do. When 56 percent of 
your Title I funds are designated or earmarked, I happen to 
believe that our administrative team, that includes teachers 
and parents in our site-based teams, are better prepared to 
decide how to spend that money than folks mandating to us how 
those resources need to be spent.
    Mr. Miller. Be careful now.
    Mr. Grier. I know. I want to be careful----
    Mr. Miller. And the rest of the comment, we have about a 
minute left here, hopefully.
    Anyone else?
    Certainly.
    Mr. Maqubela. When we were all in school, there was no No 
Child Left Behind. And there was no AYP. So in looking at that 
and looking at this very issue of accountability, we have to go 
back and look at what was the purpose, what was the cause to 
have us have these assessments as they have now turned out to 
be across the board.
    Well, at that time, America was leading the world, not only 
in innovation, but in education in every sector. So we created 
this, not just to judge schools, but to turn around the school 
systems across this country where our students were being 
educated. So in looking at that, we can't have one generic 
national model that looks at every single school district the 
same.
    I think one of the things that I hear many of my colleagues 
say, not only here, but every time I travel around the country, 
is you need to look at what is going on not only in the school 
district, but in that particular school. So clearly, we need to 
have a common sense understanding of what success looks like.
    However, at the national level, we need to continue to pass 
that intense monitoring one step down, so from the Federal 
Government to the state government to the municipalities to the 
individual schools. And for us, we know that there is nobody 
better equipped in managing that school to understand what the 
specific needs are of those particular students that are in 
that school than the head of that school, the principal as 
reported to him or her by the faculty in that building.
    So to take that power out and pass it one step up and take 
it away from the municipalities and pass it up and pass it up, 
we have the situation that we are currently in and where, just 
as Dr. Grier says, you have outstanding schools that you know 
are doing your school and your students a true service that are 
deemed as failing.
    Ms. Barresi. Congressman, what I heard from you is--and 
rightly so--a recognition of the importance of local control of 
schools and a recognition of the importance of data in 
informing, not only instruction, but critical decision making. 
And that is very important. If we have those flexibility of 
dollars within our state to apply them to the particular 
situations we have in our states--in Oklahoma, we have a very 
large Native American population, a very largely growing 
immigrant population, English as a second language.
    We have a mixture of rural, urban and suburban schools, 
each of them with very different types of challenges and needs. 
And so, if we had increased flexibility informed by data to 
make those decisions on where we spend our dollars, it would be 
excellent, particularly, for instance, in our student grading 
system I just discussed.
    If parents and educators within a school decide that it is 
unsatisfactory, the grade they received, if they say, well, we 
don't like this D, we want to increase it to a C, here is our 
2-year plan on how to do that. I would love to be able to have 
a grant pool where they could apply with competitive grants to 
be able to enact that plan. That is a great deal of community 
and parent buy-in, and it is accountability.
    Chairman Kline. Thank you.
    The gentleman's time has expired.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    Thank you all for your testimony. I had the opportunity in 
2006 for a short time to chair this committee. And we were 
preparing for the reauthorization of the Elementary and 
Secondary Education Act or No Child Left Behind. I was 
involved, as many of us on this committee were, in writing 
that. We thought that that probably was the solution to end all 
solutions for education.
    And immediately, we started getting bombarded with 
criticisms as soon as it was passed. And that went on for 
years. And as I traveled around the country in 2006, it seemed 
to me that people were saying to me that a few things. And I 
talked to school board members. I talked to superintendents, 
principals, teachers, parents. And the different parts of the 
country all said the same thing.
    You know, if we could--if we could solve English secondary 
language, if we could deal with the students with disabilities, 
if we could deal with growth models, there were about five or 
six things. And then we lost the majority. Mr. Miller became 
the chairman of the committee. And he tried really hard for 4 
years to get this reauthorized. And now, Mr. Kline is trying 
really hard to get this reauthorized.
    Chairman Kline. Where is the story going?
    Mr. McKeon. I am going to where--you know, if somebody were 
judging us like we are judging these schools, we would probably 
be a failing Congress or a failing federal--maybe we were 
judged, and maybe that is why----
    Chairman Kline. I don't know.
    Mr. McKeon. Anyway, the point is each of you mentioned 
flexibility. If you were in our seats, I would like to hear 
from each of you what you would do to make that flexibility 
happen. I don't care where you start.
    Mr. Grier. One of the things I would suggest is that you 
would consider eliminating all set-asides, perhaps with the 
exception of a 1 percent for parental involvement and let local 
school districts and school boards and superintendents, with 
input from their teachers and administrators, decide how to 
best spend those dollars and, at the same time, hold us 
accountable for results.
    Mr. McKeon. Okay. Okay. Some people think local control is 
state. Some people think it is county. Some people think it is 
school--in area schools, it would be school district. Okay. So 
you would bypass the state?
    Can we do that, constitutionally? I mean, with the state?
    Mr. Grier. Well, I can tell you the states I have worked 
in, the last three states, North Carolina, California and now 
Texas, federal money that flows through the states through the 
departments of education that get hung up there and they take 
it off the top----
    Mr. McKeon. I know it. I agree with you totally.
    Mr. Grier [continuing]. It----
    Mr. McKeon. Could we give it straight to the school?
    Mr. Grier. Straight to the school districts.
    Mr. McKeon. Okay.
    Next?
    Mr. Maqubela. I think one of the key issues when we talk 
about flexibility is incorporating within the legislation some 
kind of mechanism to evaluate each school district and schools 
individually based on their----
    Mr. McKeon. You think that is the federal responsibility to 
evaluate each school?
    Mr. Maqubela. Not that it is their responsibility, but 
there is a mechanism within the federal legislation that allows 
states----
    Mr. McKeon. How about if we took the Federal Government out 
of that?
    Mr. Maqubela. Well----
    Mr. McKeon. And we just gave you the money, and you just do 
what you want?
    Mr. Maqubela. Well, I think, you know, obviously there are 
pros and cons to that. However, for us, I think that when we 
look at it, there needs to be----
    Mr. McKeon. How about if we just cut the taxes and let you 
tax at the local level and be totally in charge of it?
    Mr. Maqubela. I mean, certainly, for us, we would love to 
get the money directly.
    Mr. McKeon. Great.
    Next?
    Mr. Amoroso. We would love to get the money directly, but I 
don't think our board of education wants to tax for it. That 
would be----
    Mr. McKeon. They would rather have us tax?
    Mr. Amoroso. Yes, probably.
    Mr. McKeon. And then give you the money?
    Mr. Amoroso. But we would----
    Mr. McKeon. The problem is when it comes here, it goes 
through a siphon, and it doesn't all get back to you.
    Mr. Amoroso. That is true. But I also believe that we have 
so many areas that we are already taxing within our local area 
that I don't believe the Federal Government needs to be totally 
out of the picture. I think the Federal Government has a 
responsibility to ensure equity, access for all children.
    But I think when you start boring down then into the 
operationalizing of that, I think that is where the Federal 
Government needs to step aside, work through the states.
    There is no problem having accountability structure with 
the state. When you provide us with the dollars, as Dr. Grier 
said, give us the dollars directly, but hold us accountable for 
creating a plan on how those dollars are going to be utilized. 
Submit that plan to the state. Have the state approve it. And 
then there is an accountability that goes beyond just the 
district.
    Mr. McKeon. Well, you know, we have been chewing on this 
now for 4 years trying to get this reauthorized. And during 
that 4 years, we have had kids go through the system or fall 
out of the system. And we are still sitting here talking. And I 
got three different answers on flexibility. And probably----
    Chairman Kline. And that is all you get. The gentleman's 
time has expired.
    Mr. McKeon. Thank you.
    Chairman Kline. Mrs. McCarthy?
    Mrs. McCarthy. Thank you.
    For some of us that have been here a long time, everything 
that you are all saying with the flexibility and local control 
is something that we all went through.
    But, Dr. Amoroso, everything that you basically said were 
the goals that we all had here in No Child Left Behind, to look 
at each child individually and where did they need help. One of 
the biggest problems were, in my opinion, from what I heard 
from my school districts, was things that weren't working, we 
couldn't get that data fast enough to change it around. And 
that was a big problem.
    There were a number of things that have been said as far as 
the local control, which I happen to believe in. But with that 
being said, we also know you are the best of the best. There 
are school districts out there that unfortunately do not use 
their money wisely. And that is why we need to look at how we 
have accountability.
    And going back to the state, you know, I live in the great 
State of New York. And they have taken over one of my schools. 
And they have had it for 10 years and haven't made any 
improvements on it. So again, how do we take the best of the 
best of the information that you all are giving us and be able 
to phase that into some challenging schools? And we all have 
challenging schools. There is no two ways about that.
    We all want the best education for our students. But to be 
very honest with you, I am hoping as we go through this 
reauthorization--I don't want to be back here in 10 years and 
say, okay, here are the problems we have, because that is a 
whole generation of kids we have lost.
    And yet, I have schools in my district that are serving an 
underserved area. But it was the principal and the 
superintendent bringing that energy to the school and making 
sure 97 percent of those kids are graduating to go to college.
    No one is looking at the grade schools that we have with 
the challenges that some of my same schools have. You know, so 
to me, it is within, which is a little bit of what you are 
doing in your charter schools. But it is also the principals, 
which I believe that we should be looking at how we develop 
better principals. How do we develop those that can go into the 
schools and take charge to have the leadership that they need?
    You are all the top of the cream. And so, I will take 
anyone that can help me out on where we go with that.
    Mr. Maqubela. Congresswoman, you hit the nail right on the 
head. And myself, I spent numerous years in New York. And part 
of my time there was working in the New York City Department of 
Public Schools. And they had a very innovative model in the 
early 2000s where they looked at individual schools and the 
leadership of those schools and developed the metrics to 
determine what makes a quality principal.
    And then they developed a system to give those quality 
schools that were headed by quality principals the latitude and 
the leeway to still be a part of the public school system, but 
have more flexibility similar to a public charter school or an 
independent school.
    I think when we talk about this legislation, there needs to 
be a mechanism for the Federal Government to allow states to 
develop a plan--because what you say is right. Not all state 
boards of education are created equal. And not all school 
leadership is created equal.
    But where the Federal Government allows the states to 
create a plan to then assess the performance of top-performing 
school districts and top-performing schools to give them that 
flexibility. No one knows how better to serve the children in a 
school than the faculty and the administration that run that 
school.
    But your point is well-taken. We need to develop more 
quality leadership in our schools. But when we identify those, 
we can't hamper them and bog them down and bar the innovative 
genius within them by giving them the same treatment as we do a 
failing school.
    Ms. Barresi. Congresswoman, one of the most important 
things we can do as we transition the changes within No Child 
Left Behind is to move away from the idea of AYP. We are 
addressing a new situation in this country where we have to 
focus on college-ready and work-ready meaning the same thing. 
And so, it is a new way of looking at this.
    And so, we need to incentivize innovation. We need to 
incentivize success and take those techniques and models and 
find where we can apply them to areas that across the country 
that represents the same demographics.
    I have seen successes in the inner city, and I have seen 
successes in rural Oklahoma. And there is nothing that any of 
those schools are doing that cannot be replicated within 
schools within those same areas. They need to be incentivized 
to do that.
    I had the opportunity last week to attend the Council of 
Chief State School Officers. There was widespread agreement 
among all of us that the greatest challenge we have is in 
teacher and leadership effectiveness and identifying, 
recruiting and developing professionals that can go into our 
classrooms.
    So as we are faced with the requirements of highly 
qualified teachers that focus more on degree level and 
certification, what we need to do is look at individuals that 
have the skill and the expertise to meet the individual needs 
of children within those schools.
    Mr. Grier. Just real quick, I concur. One of the finest 
charters school networks in Houston, the principal/
superintendent running that network has a B.A. degree. And 
right now, the flexibility they have to hire principals in 
their schools and compared to what we have in our district is 
like night and day. I would like to see us, in terms of 
certification--the kind of principals we need to run urban 
schools need to be innovators.
    Their training program needs to be almost as much or more 
from the MBA side of the house at the university level than 
getting a master's degree in school administration. How we 
train principals must change in this country.
    Chairman Kline. Thank you.
    The gentlelady's time has expired.
    Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman.
    Dr. Amoroso, my State of Illinois, like your State of 
Minnesota, was not selected to receive funds from either the 
first two rounds of Race to the Top. Can you tell us about any 
reforms at your schools and others you may be aware of that 
have made plans or plan to make in response to Race to the Top? 
And what are your thoughts really on the effectiveness of the 
program? And how will that play into our reauthorization of 
ESEA?
    Mr. Amoroso. Minnesota was challenged in their Race to the 
Top application because we couldn't, in the state of Minnesota, 
gain unity between our legislature, our governor and our 
unions. And so, we did not even really move forward with that.
    One of the challenges, you know, when you start looking at 
Race to the Top dollars is some states, some local areas may 
have more resources to be able to put grants of those nature 
together. It was a very, very complicated process. And, in my 
opinion, you begin to create winners and losers with that type 
of a program.
    And so, what I would like to have you consider is with 
whatever funding you feel is appropriate to move forward with 
the reauthorization, that it be more of a formula-based process 
versus a grant process, whether it be Race to the Top, or 
whether it be any other type of grant program. Not all of us, 
whether it be a state, whether it be a particular district, 
will have a level playing field in applying for those grants. 
So I would prefer us to have the conversation about formula.
    Mrs. Biggert. Some of my regional superintendents have 
said, well, you know, it is not about the dollars and we don't 
really need the dollars. But what is good about the program is 
some of the ideas and innovations that Race to the Top. Now, it 
is hard for us to really know because we really never had any 
input or really knew prior to these schools competing for it 
that what was in there. And it is kind of hard for us to see 
what goes in there.
    But in Illinois, some of the schools have adopted much of 
Race to the Top without the dollars. Is there anybody that is 
using Race to the Top? You? No?
    Well, I would go back then to Dr. Amoroso. Have you used 
any of the suggestions from Race to the Top in your curriculum? 
I am not talking about dollars now. I am talking about what is 
actually suggested, the data, the----
    Mr. Amoroso. Sure. We believe, over the last 10 years, we 
have done an excellent job of raising the achievement levels of 
our students. And we have the data to support that. We have a 
strategic vision within our school system. That is our roadmap.
    And truly, we talk about serving each child. One of the 
things we did was created, you know, the utilization of the 
math test that I talked about earlier. We have engaged in the 
process of creating professional learning communities within 
our staff so that we have those conversations on a regular 
basis about children and how to best serve children.
    Within the state of Minnesota, the conversations are now 
being held about certification of staff, about evaluation of 
staff, evaluation of principals, as some of my colleagues said. 
That is something that we have to look at is to make sure that 
every professional that works with that child is top rate 
because, as some of the Congresspersons have mentioned, 
children have one opportunity.
    Mrs. Biggert. Right. Okay.
    Mr. Amoroso. And we need to move forward.
    Mrs. Biggert. Thank you.
    And, Dr. Barresi, it seems like what we heard most about No 
Child Left Behind was the fact that it was just based on pure, 
basic skills, math and reading and that we really have not 
really had the quality and the comprehensive curriculum that 
our kids need to compete in the global world. All these other 
schools, particularly math and science, our kids are way 
behind. We number, what 24th or 28th in the school system, 
which is really challenging for us.
    And I have heard, you know, that teachers regret not--when 
they have a teachable moment and they are not able to do that. 
They are focusing basically on the test, which I am sure we 
will change and certainly, needs to be done.
    What about the curriculum? Do you see that there is going 
to be a change in that? Is that being worked on?
    Chairman Kline. I hate to interrupt, but the gentlelady's 
time has expired.
    If we could get that answer for the record.
    Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman.
    As we develop a consensus around some of the changes that 
we should be making to the reauthorization of ESEA, I do think 
that there is a growing consensus around the proposition that 
ESEA should also reflect support for the importance of quality 
early education. And I hope that this panel of educators join 
other panels of educators who also agree that this is evidence-
based reform that should be reflected in reauthorization. So if 
anybody doesn't agree with the importance of quality early 
education, raise your hand. Okay, great.
    I was particularly interested, Dr. Amoroso, in your own 
school district because I note that you were among those 
superintendents, 27, past and present superintendents in 
Minnesota who signed the Minnesota challenge, or Minnesota 
promise, I should say. And in that promise, there are eight 
traits that characterize a world-class education system. And 
one of those elements, I think, is universal Pre-K. How are you 
doing in Minnesota in providing universal Pre-K opportunities 
for your kids?
    Mr. Amoroso. Thank you. I was honored to be one of the 27 
superintendents that was actually selected to be one of the 
founding writers of that document. And it was a very 
challenging process, but we thought we came up with a product 
that was a blueprint, possibly, to be used, not only within our 
state, but throughout the nation.
    In Minnesota, the conversation has been around, not only 
Pre-K, but K. Do we fund all-day kindergarten? Because right 
now, all-day kindergarten is not funded within our state. And 
so, by example, in the Lakeville area public schools, we offer 
an all-day kindergarten program, but it is at a cost of about 
$3,100 to the parent.
    We have an outstanding early childhood program and an early 
childhood special education program. We have families that move 
to the Lakeville area public schools for our early childhood 
programming because we see the value and the research and data, 
as you have mentioned, is very clear.
    A child that walks into your system ready to learn in the 
long-run is going to achieve more academic success and from a 
financial perspective, will actually be a less costly child, if 
that is an appropriate term. So we value that quite a bit.
    Ms. Hirono. So the federal role in this, I would say, as we 
look at reauthorizing ESEA, would you welcome support for 
incentivizing states, for example, to move ahead with providing 
quality early education such as supporting the early learning 
challenge fund, which is something that the president has put 
forward?
    Mr. Amoroso. Governor Dayton, who is our governor in 
Minnesota--one of his main points of his platform on education 
is early childhood education. And so, personally I would 
entertain that conversation of funding for early childhood 
education. But I would need to have a better understanding of 
the broader impact. Because if we have funding here, does that 
mean something else within our educational arena is not funded? 
And so, while I----
    Ms. Hirono. Well, that is not what I am talking about. Yes, 
we need to add to and not, you know, supplant.
    Mr. Amoroso. That is a great conversation.
    Ms. Hirono. Supplement, not supplant. So I think we are 
developing a consensus here.
    I did have a question for Dr. Grier because we are looking 
at--I am looking at models for how to turn around low-
performing schools. And I note your Apollo 20 initiative. And I 
was interested to know do you have any external community 
partners in the Apollo 20 initiative. How did you get them 
there? How is that working? And were there any particular 
challenges in getting all these people to the table?
    Mr. Grier. Yes, we have a number of partners. I have 
already talked about Ed Labs at Harvard University that is 
partnering with us around the implementation of these tenets. 
The New Teacher Project out of New York is working with us in 
terms of teacher selection, the Haberman Foundation--Dr. Martin 
Haberman's work at the University of Wisconsin at Milwaukee.
    We also had a lot of support from the philanthropic and 
business community. We are going to raise--our goal is to raise 
about $10 million from private sources over the next 3 years 
because, frankly, it costs more to add an hour to the school 
day and 2 weeks to the school year and to hire all these 
additional tutors.
    Ms. Hirono. So is that working? I notice that you are going 
to expand to other schools.
    Mr. Grier. Of course, we aren't ready to declare victory 
yet. But we have decreased out-of-school suspensions in these 
nine secondary schools by over 30 percent. Our attendance is up 
in all of these schools. Our measures of student success in 
terms of formative assessment during the year has shown an 
increase between 36 and 46 percentage points.
    And the math tutoring--we really believe we are onto 
something. We will know more when our end-of-course test 
results come back. But we are very optimistic.
    Ms. Hirono. Do you think yours is a model that other states 
seeking to turn around low-performing schools could look to?
    Mr. Grier. We are already seeing other districts around the 
country. Denver has been to Houston and looked at what we are 
doing there. They are starting their version of Apollo schools 
there this month.
    When we began looking at turning around these schools, we 
did not find the model in the entire country. And we talked to 
our friends in the charter world about coming and helping us 
with these failing schools. They said, we don't do failing 
schools. We will start from scratch.
    But trying to go into a school that has been failing--some 
of these were the worst performing schools in Texas and some of 
the worst performing schools in the country. And now for me to 
sit here really two-thirds of the way through a school year and 
tell you that 100 percent of these seniors have been accepted 
into a 2-or 4-year college, we think, is phenomenal.
    Chairman Kline. Thank you.
    Ms. Hirono. Thank you.
    Chairman Kline. The gentlelady's time has expired.
    Dr. DesJarlais?
    Mr. DesJarlais. Thank you, Mr. Chairman.
    And thank you so much to our witnesses today. I really 
appreciate your insight and bringing innovative, new ideas on 
how to solve our education problems. It would appear to me that 
after listening to all your testimonies, the biggest impediment 
or roadblock to your success is the Federal Government.
    And it kind of shocked me when my colleague asked you the 
question on flexibility and basically offered to hand you the 
checkbook, which, by Washington's standards, that would be 
called being thrown a softball. I would expect you would all 
have knocked that one right out of the park. Maybe you were 
just stunned by the question.
    Dr. Barresi, you didn't get a chance to answer that 
question. I know you wanted to. I have an idea where this ball 
is going.
    Ms. Barresi. We would very much welcome the opportunity to 
decide for ourselves how these dollar bills are spent. And I 
think it would allow us to focus on the individual child 
instead of focusing on funding the program or funding the 
school. We have got to get back to funding the student and 
having the money, follow the child into the classroom. With 
that increased flexibility, we can definitely do that.
    With that increased flexibility, we can focus on 
professional development for teachers, something that is very 
important, on reading programs that will help our students move 
forward, on early childhood programs and expanding those. We 
have a nationally recognized early childhood program in 
Oklahoma. Definitely, the lessons we have learned from that 
need to be expanded.
    Mr. DesJarlais. Okay. Thank you.
    Dr. Amoroso, do you feel that innovative learning is 
compromised by the standardized testing you were talking about? 
In other words, do you feel that your teachers feel obligated 
to teach to the test?
    Mr. Amoroso. I can guarantee you, sir, that as we approach 
our testing window in spring, anxieties go up within our 
system. And it is because our teachers are so passionate about 
working with their children that they want to make sure that 
their children are prepared. To me, that need not be our focus.
    Our focus need not be on getting our children prepared for 
an assessment that will be a one snapshot in time that will 
determine if a school is classified as either making or not 
making AYP. So to remove that, in my opinion, would be a 
positive thing. It helps change the culture of the 
organization. As I mentioned earlier, I am not eliminating 
accountability.
    I am, you know, proposing the accountability structure that 
we use where we do have assessments that identify where our 
children are achieving at, identify growth targets, identify if 
they have made that target. And it is real-time data that can 
be used to inform instruction.
    Mr. DesJarlais. Okay. Thank you.
    Dr. Maqubela, I liked your approach to teaching. What would 
be your opinion on countries other than the United States that 
seem to be outperforming us? Are their students, teachers and 
systems that much better? Or do they simply work harder?
    Mr. Maqubela. Again, I think it goes back to the point that 
I raised about our focus being on addressing the lowest 
standard as opposed to truly achieving to the highest standard. 
When we look around the world, we see countries in far more 
dire financial straits than ours that are having success.
    I was lucky enough--we have a partnership with a school in 
South Africa. And while we were there, we met a student from 
Namibia who literally his family couldn't afford the $30 a year 
to spend for his annual school fees. However, the love and the 
thirst for education required him to walk 10 miles a day each 
way to another district so that he could attend school while 
living with his uncle.
    That kind of passion, that kind of forward-thinking is not 
something that is foreign here. It is something that was at the 
foundation of this country's success many years ago. We need to 
get back to that.
    But part of that was driving our students, driving our 
teachers and driving our classrooms to be successful, and not 
just the elite, not just a small percentage, but across the 
board. We demand that all of our students attain a minimum 
level of success. We realize that they come with different 
tools.
    In order to achieve that, though, you have to have the 
properly skilled adults in the building being led by the proper 
administrators that truly believe in our kids' success. And 
unfortunately, there are too many people that believe because 
of the circumstances that so many of our kids are living in, as 
dire as they are, limit their opportunity for greatness.
    Mr. DesJarlais. All right. Thank you.
    And just quickly, I want to again applaud your efforts here 
because as we move forward reforming education, it is so 
important that we hear from people like you, that we hear from 
teachers. When we were on the campaign trail talking about 
health care reform, some of us physicians felt like the 
physicians were not heard. And I often said that reforming a 
health care without asking physicians would be like reforming 
education and not asking teachers. So thank you so much for 
your input.
    And I yield back.
    Chairman Kline. Thank the gentleman.
    Mrs. Davis?
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for being here.
    Dr. Grier, it is very nice to see you.
    I think you have all mentioned one of the key ingredients, 
which is a good evaluation system. And I would hope that we are 
talking about not just for teachers, of course, but for 
effective principals and instructional leaders as well.
    The other piece of this--and I know, Dr. Grier, the data-
driven accountability system is part of the Apollo programs. 
Can you be as specific as possible with this? There are 
elements--and I think that you just mentioned that. I mean, 
people who really believe in their kids and how that translates 
to the entire culture of the school.
    How does this data-driven activity help us to do this 
evaluation in a way that is meaningful and that stakeholders 
are involved? How can we at the federal level direct that kind 
of activity? Or, you know, can we? How do you do that moving 
through the states, if you will, to make that happen in such a 
way that we really, in some ways, relieve the local 
jurisdictions of having to direct it in a way that perhaps 
finds a lot of resistance?
    And anybody want to tackle that?
    Ms. Barresi. In Oklahoma, as we look to expand and develop 
our student data system, we don't want to just create a system 
that produces some great numbers that are used. The next step 
is, the most important step is, is to actually train educators, 
train their principals and their superintendents on how to use 
that data to drive decisions within the classroom and to make 
critical decisions about policy and about resource development 
within schools.
    I had a superintendent just a month ago that called me and 
said he is watching the culture in his district completely 
change because he is focusing on working on just that element 
with his educators. He said they are becoming excited by what 
they are seeing. They are able to see gaps in learning and make 
plans on how to fill in those gaps.
    He said he feels more effective at using resources within 
his district. Very excited about it.
    Mrs. Davis. Thank you. And remembering that we have a 
difficulty among all of our school districts now in terms of 
resources.
    Dr. Grier?
    Mr. Grier. Yes, one of the biggest challenges, I think, 
that faces the country in terms of education reform is this 
whole issue of data management. There just simply are not 
systems out there. We have 202,000 students.
    And being able to do soft assessments of students' work 
every 2 to 3 weeks and give teachers immediate feedback on how 
the kids did, which objectives were mastered and where they 
need to go back and reteach is just not out there.
    And many of the companies that are developing the systems, 
they know the market. But I promise you, it is not there yet. 
And there is a lot of states trying to get there. But there is 
a big, big gap between being able to manage that data in a 
meaningful way so that teachers don't feel that you have just 
piled something else extra on their plate.
    Mrs. Davis. But I think we also see that that is used as a 
bit of an excuse as well, that we don't have that management 
system.
    Mr. Grier. That is true.
    Mrs. Davis. And therefore, you know, how can we possibly 
get underway with the system?
    Mr. Grier. Well, I know in Houston, our new principal 
evaluation and our new teacher evaluation instruments, both of 
those, are heavily weighted towards outcomes, student outcomes, 
school performance, measures of success.
    Mrs. Davis. Mr. Maqubela?
    Mr. Maqubela. Congresswoman Davis, the model that we have 
where we are linked with a major research university speaks 
just to this. In addition to being a math/science school, we 
are very immersed in technology. We have instead of a one-to-
one student to computer ratio, we have a one-to-two where our 
students have computers in the home as well as in the 
classroom. And the primary reason for that is because we have a 
program designed to effectively use data.
    Unfortunately, using data to inform instruction has become 
one of those catch phrases just like differentiated 
instruction, where we--there. And as Dr. Grier says, there are 
a lot of vendors that take advantage of that and throw----
    Mrs. Davis. Can I interrupt you just really quickly? If you 
could, just tell--within this federal legislation and 
authorization, what would you like to see in this area?
    Mr. Maqubela. Sure. What I would like to see is that we 
actually come together and we look at what works. And so, as 
opposed to just saying use data-driven instruction, well, look 
at schools like ours that have this partnership with the 
university that have the research base and the intellectual 
know-how along with the practice so we are able to put forward 
best practices and then develop national standards based on 
those best practices.
    Mr. Grier. I want to be able to use Title I funds to help 
me with data collection and to develop a data collection 
system. And right now, we are not able to do that.
    Mrs. Davis. Okay. Thank you.
    Chairman Kline. Thank you. The gentlelady's time has 
expired.
    I am going to stress the system here. We are going to go 
for two more questions, and then we will be breaking to vote.
    Dr. Roe?
    Mr. Roe. Thank you, Mr. Chairman.
    And first of all, say hello to our friend, Mary Fallon, in 
Oklahoma.
    And I want to commend the panel. You have been fantastic. I 
have cleared a lot of focus up for me like focusing a camera. 
And I have heard over and over flexibility.
    Dr. Grier mentions mandates, one of the sore spots I have, 
mandates with no money, which is usually how it comes, and 
accountability. I have never heard a teacher that I have talked 
to ever say they didn't want to be held accountable. They do. 
And they want to do a good job. I have never heard that.
    Our kids today now are competing, now with the county next 
door or whatever. They are competing around the world. And when 
I talk to them, I say, look, when you are competing here in 
Carter County, Tennessee, where I--basically, where I am from, 
you are not competing with kids there.
    You are competing with a child in China or India. So you 
have to have the skills to be able to do that. It no longer 
works just having the skills to compete for a factory job down 
the street that is gone. And what I have heard--the solutions--
and I guess what I heard was when you use a GPS system, it will 
show you three or four ways to get where you want to go. But 
you end up where you want to go.
    And what I have heard today is is that you need 
flexibility. Four very different school systems and four very 
different ways to do things, and yet, we are--I think we are 
hindering you from doing your job here. Fifty-six percent of 
the funds, I think, Dr. Grier said, were encumbered. He 
couldn't do anything with them. I got the message loud and 
clear.
    And I think I am hearing what the teachers are telling me--
is that they are swamped with paperwork, is get all that out of 
the way and let us do our job.
    And, Dr. Barresi, you made the point--and I make it all the 
time--is that where is all this money going. Is it stopping 
right here at the top? Or is it getting into classrooms of 
those kids where it needs to be? That is where the money needs 
to be, is not out here with the bureaucracy, but in the 
classroom.
    And this is why we have to change right here. And then I 
have got one other question.
    Recent reports in the National Association of Education 
Progress show that reading and math scores in fourth and eighth 
grades have stagnated since the passage of NCLB, calling into 
question the reforms that states have been required to 
implement under the law.
    In addition, the long-term trend assessments taken in 2008 
have showed the average reading scores of 17-year-olds not 
significantly different from 1971 and the average mathematic 
scores of 17-year-olds not significantly different from 1973.
    We can't keep doing the same thing. We have to do something 
different. And I think what we do is we let you guys do your 
job.
    And, Mr. Maqubela, in your testimony, you talked about the 
importance of that flexibility provided you in your school. 
Should states and school districts be provided the same 
flexibility just in a traditional public school where I went to 
school?
    Mr. Maqubela. In short, certainly. Again, there is nobody 
who knows better how to best serve the students in my building 
than the adults in my building because we have shown and proven 
that we know our families, our students and their needs best.
    What needs to be done and the role that the Federal 
Government can play and in related to the states' government is 
a mandate that says, okay, we realize that every school isn't 
indicative of those that are represented by the administrators 
here. How do we develop a tool in order to determine what is 
effective and what isn't?
    Some folks are fine. They don't need any more support. Give 
me the money directly. And we have already demonstrated what we 
can do with it.
    Can I say the same about the school next door or the school 
district next door? Absolutely, not. But what we show is that 
there are hundreds, and if not thousands, of public schools 
throughout this country--and I know because I have visited many 
of them. I have worked with principals from these schools--that 
are stagnating because they are stars, but they are strapped 
with the same restrictions.
    A perfect example--there is a school in the Bronx, New York 
that went in one of the poorest school districts in the South 
Bronx but had an innovative leader who went outside of the box 
and had folks onboard ready, corporations, JPMorgan, Chase, to 
name a few, that were ready to invest and revamp the school. It 
took him years to get out of the administrative red tape to be 
able to turn that around and create a stellar school.
    Mr. Roe. Well, how do we--and now, I do not have much time. 
We have got to go vote. But how do we do that? I think we have 
to get the money back down to the--where the boots are on the 
ground to allow you all to do that. I have heard that from a 
huge school system like Houston, Texas to a smaller one.
    Dr. Amoroso's about the same size of the one I live in. And 
I believe that is what we have to do to make this work because 
what we are doing isn't working. So we have to change.
    Mr. Amoroso. Right. Right. Again, for those schools and 
school districts that have demonstrated over a period of time 
that they can be successful, remove the burdens at the national 
level so that they can be able to do their thing free of the 
hindrances.
    Mr. Roe. Okay.
    Any other comments on that?
    Ms. Barresi. Congressman Roe--and I was remiss in the 
beginning. Governor Fallon asked me to send her regards to the 
chairman and to the committee as well.
    I am also at the unique position of being the founder of 
two charter schools in the State of Oklahoma as well as being 
state superintendent now. And I think it is important we take 
the lessons that we have learned from charter schools and apply 
that throughout the State of Oklahoma, and for that matter, the 
nation.
    And that is that when the requirements and the bureaucracy 
are lifted off from the front end and you are allowed to 
innovate, that the accountability is very strong on the back 
end. In other words, if a charter school doesn't perform, they 
are out of business. That drives decision making in a most 
profound way.
    That drives decision making on budgeting. The money does 
get to the child within the classroom. And I think that is 
exactly what you are talking about.
    Mr. Roe. Thank you.
    Chairman Kline. Thank you.
    Mr. Roe. I yield back. Great panel.
    Chairman Kline. Mr. Kildee?
    Mr. Kildee. Dr. Maqubela, in your school, the percentage of 
sub-groups, say the disabilities sub-group or the ELL sub-
group, how do they parallel the percentage of the numbers in 
those sub-groups in your general service area? In other words, 
are you attracting members of that sub-group in a sufficient 
number comparable to the general area?
    Mr. Maqubela. Certainly. One of the things that we as a 
charter school is we are mandated to be non-selective. So all 
of our students come to us via lottery. And there is a great 
deal of legislation that--and rules in place to mandate that we 
publicly advertise and that we are reaching out to all the 
communities where students are that we serve. And so, what we 
find is that our kids come to us across the board.
    That percentage changes every year because we are non-
selective. One year we may have a special education population 
that is 20 percent. And it may vary.
    But what we do see is a representation, which is similar to 
that which the public school district that we are in also 
serves. So we have a nearly equally high number of students 
that are from households below the poverty line as well as 
those that--in addition to being socially and economically 
disadvantaged, are students with various disabilities that we 
have to serve as well.
    Mr. Kildee. In 2010, you had 0 ELL students and 11 students 
with disabilities. Is that pretty well what you would find in 
the general service area around your----
    Mr. Maqubela. Well, what we find is that within our service 
area, particularly with the ELL students, they are particular 
to specific neighborhoods. So when we look at our neighborhood 
where our school is located, that is very indicative.
    The other thing that we have is that our immigrant 
population and the students that we are serving in that 
population are changing from year to year. So we are getting 
less first generation and more second generation. So these are 
individuals that are coming from households where the parents 
are non-English speaking, but the students themselves are 
English speaking.
    Mr. Kildee. I may pursue this with you by letter to get how 
it is done over, say, a period of 5 years, how you do attract 
those sub-groups.
    Mr. Maqubela. Yes, definitely.
    Mr. Kildee. There are certain schools--I am not saying 
yours--where there is a certain deficiency in number of those 
sub-groups.
    Mr. Maqubela. Yes. And that is one of the things that we 
look at. Another area in which comes up with that is--that 
charter schools take a hit--is as far as student retention. And 
one of the things that we are very proud of--again, even though 
we have over two-thirds of our students that are coming to us 
woefully below grade level, we are not looking 3 years later to 
eighth grade and out of 100-student class or 120-student class 
only seeing 50 students there.
    We have very, very little student attrition. So we are 
showing that those high numbers we are seeing in the eighth 
grade are with the same students that came to us with such low-
performing numbers in the sixth grade.
    Mr. Kildee. And, Chairman--(Off mike.).
    Chairman Kline. I thank the gentleman. And he draws 
attention to the fact that the clock is indeed winding down. We 
are going to go vote. We will be back after what I believe is a 
series of three votes. The committee is in recess.
    [Recess.]
    Chairman Kline. The committee will reconvene. I have got to 
make a short clarifying statement here.
    It is amazing how these things occur. Before we had even 
walked off the floor, there was a press report that I had 
indicated we were going to reauthorize No Child Left Behind 
immediately after the Easter break. What I thought that I had 
indicated was that we hope to take up the first in what will be 
a series of pieces of legislation next month to start to 
address these very issues that we are talking about here.
    While members are coming back, I would like to resume 
questioning at this time with Mr. Scott.
    You are recognized.
    Mr. Scott. Thank you, Mr. Chairman.
    I thank all the witnesses for your testimony. One of the 
problems with flexibility is, as the witnesses have indicated, 
a lot of school divisions can do a lot better if they had the 
flexibility and none of the national standards. The problem is 
a lot will do worse.
    Detroit was debating--I don't think they are going to 
actually do it. But they were debating having class sizes of 
60. You know, you would want a national standard on that. That 
may or may not be a good idea for everybody. But without the 
national standard, some will do a lot worse.
    Now, Mrs. Barresi, you indicated that the elimination of 
AYP as a standard--how would we know if schools are actually 
functioning if you don't have a measure that they have to come 
up to?
    Ms. Barresi. AYP just recognizes a certain performance 
level. And it also penalizes a school if one sub-group fails in 
that mark. What we have to do as a country, what research has 
shown us and what the new knowledge economy has shown us is 
that we have to focus more on competencies in career-ready and 
college-ready requirements.
    And so, that is a focus more on those skills that students 
need to be successful: inquiry skills, writing skills, 
synthesis, analysis. So where AYP focuses more on an 
examination of content, we must also then pivot to include that 
into an evaluation of these core competencies for success.
    Mr. Scott. Well, what I am hearing is we need to better 
establish what AYP means, not eliminate the idea that people 
have to come up to a minimum standard.
    Ms. Barresi. Certainly, there needs to be accountability. 
There needs to be marks that these students meet. But what is 
measured is tested and is taught. So those measurements must 
reflect what we need for a child to be competent.
    Mr. Scott. Okay.
    And, Mr. Amoroso, you talked about high-stakes test. One of 
the problems that you have is that you can get misleading 
results if a student does well this time today and not well 
tomorrow. Depending on which day he took the test, those 
results may vary. And it would be unfair to stick him with the 
results of just one high-stakes test. Can you say a word about 
whether or not tests are actually valid--using tests for a 
purpose for which they are not validated?
    Mr. Amoroso. For which they are not validated?
    Mr. Scott. I mean, you can have tests that are validated 
for one purpose, for example, for whether the school is 
teaching the material that the state says needs to be taught.
    Mr. Amoroso. Sure.
    Mr. Scott. And if it is not being taught, all the students 
will fail.
    Mr. Amoroso. Sure.
    Mr. Scott. To assign that score to the students wouldn't 
make any sense.
    Mr. Amoroso. Sure.
    Mr. Scott. But it is valid for the purpose of determining 
whether the school is doing well, but not valid for the purpose 
for which for the student.
    Mr. Amoroso. High-stakes tests I have a problem with just 
in general simply because of the fact that it is a snapshot in 
time. It is as you said very well. It shows you what that 
person's performance was on that day. It doesn't take into 
account what was going on in that child's world, potentially, 
on that day that could have impacted it.
    Any test that we give, whether it be a high-stakes test or, 
in our case, the measurement of academic progress or something 
that one of our teachers does within his or her classroom, 
there needs to be validity to that measure that it truly is 
measuring what we intend it to measure. And if it is to measure 
what children are learning, so be it. But if it is to measure 
how a system is doing, that might be a different conversation 
then.
    Mr. Scott. And you have also indicated that you want the 
tests timely so that you can use the results for instructional 
purposes.
    Mr. Amoroso. Correct.
    Mr. Scott. Not just to get the bad news and do nothing 
about it.
    Mr. Amoroso. Absolutely.
    Mr. Scott. All right.
    Mr. Amoroso. The assessments need to be a tool that will 
provide data that will help us to get a handle on where the 
child's achievement level is and can help guide us to how we 
can improve that child's achievement level.
    Mr. Scott. And, Dr. Grier, you have talked about response 
to failing schools. And one of which is to fire all the 
teachers in one school. Have you had any response from 
teachers?
    Because if you elect to be at a failing school, you stand 
the chance of getting fired. If you move to a good school, you 
can be a bad teacher at a good school, and you have job 
security. You can be a good teacher at a bad school and have 
your job in jeopardy, particularly when, I understand, the 
assessments are not all that accurate.
    Mr. Grier. There is no safe place in Houston, Texas if you 
are a bad teacher. Bad teachers influence children's lives 
forever, particularly if you have a bad teacher, 2, 3, 4 years 
in a row, which many students, particularly in poor inner city 
schools have. And we have offered incentives for teachers to 
teach in our low-performing schools.
    We have had a grant from the Gates Foundation, and you can 
receive up to $10,000 a year to teach in one of our low-
performing schools if you have high-value added test scores in 
other schools where you have worked. So I understand your 
question. But I do think there are things that school districts 
can and should do. It is many times an issue of having the 
political will and courage to address those issues.
    Chairman Kline. I thank the gentleman.
    Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman.
    And thank you, all of the panel members, for being here. 
And I apologize for not being here for the entire time. So I 
hope that I don't ask questions that have already been asked. 
But, hey, I need to know the answers, too.
    And I am thrilled--and I just came from homeland security 
hearing, where we were talking about issues that relate very 
much to what you have said, that there is no safe place in 
Houston for a bad teacher. What a wonderful statement.
    Being a parent, having been a teacher, interested in what 
goes on, that is a wonderful statement. But sadly, there are 
some bad teachers. And I am not talking about in the K-12 
system that are doing this, but that are teaching people to do 
things that we are concerned with in homeland security that are 
wrong. And we don't want to have activity that does not teach 
our students, that we have stewardship for, teach them well.
    Mr. Maqubela, I was caught with your statement--and I 
probably paraphrase it--where you said, all of the adults, the 
adults in our students' lives and in our school know what is 
good and what is best for our students. I think that is a 
telling statement about the primacy on the student. And that is 
the outcome that we want to see here.
    So let me ask you this question. And it is fairly open-
ended. And I hope you take opportunity to answer it strongly as 
well. You discuss annual yearly progress and your school in 
your testimony. How do you feel that AYP standard affects your 
school? And how do you think the AYP measurement could be 
changed and/or what should be used in place of it?
    Mr. Maqubela. Like so many of my colleagues, we realize 
that we are seriously hampered by this, not only one test, but 
one measurement to make a huge determination. As Dr. Amoroso 
has noted, we do multiple assessments throughout the year 
leading up to, for us, which is our assessment, state 
assessments, which is the D.C. CAS. And looking at those 
results, you will see a same student over those four 
assessments--one day, they may perform basic. Three months 
later, they may perform advanced.
    What it is is a factor of what goes on in that particular 
day. So even moving beyond just this one year-end assessment, 
what we would like to see is a move towards, which has been 
discussed, a growth model. What are we doing with that child 
when they come into our door to the time that they leave our 
door?
    One of the things that we are very proud of and we 
mentioned earlier is that even though we have a high student 
poverty ratio at our school, we are not one of those schools 
that pawns these kids off. Our kids that come into the 
program--overwhelmingly we have a very low student attrition 
rate. So we are taking those kids that are performing 
incredibly below grade level and following them over 3 years.
    Coming to us in the sixth grade, if a student is reading 
literally as a beginning reader, how realistic is it to think 
that when they enter our school in September to when they are 
tested in April that in just those 7 months, we are going to go 
from--forget below basic--to elementary level, beginning 
elementary level to secondary school? It is not realistic.
    But when you look at that program over a course of time, we 
see that those gains are possible if you stick with the 
program. So for us, first and foremost, we would like to see a 
move towards a growth model and not just looking at something 
in this one point in time.
    Another example of that is that there are specialty schools 
out there that service a particular population, maybe those 
with special needs, those kids transitioning from the criminal 
justice system.
    Again, many of the advantages that are available in other 
schools were not present in these students' lives. So to hold 
those schools to the same standard of what success is when they 
have transformed kids' lives around, isn't the same.
    The other piece--and I would end it on this--is for us, 
even going beyond the growth model, even for those schools if 
we move to a growth model, that requires some form of regular 
annual testing. These are administratively burdensome and 
costly. You have to pause out of your program from the great 
instruction we are doing--we talk about the stem activity that 
we have, where we have been able to attract the interest of a 
company like Google to invest in us. This is valuable time that 
we have to put on hold during this.
    What I would like to see is somewhere an allowance in the 
legislation that allows schools over an adequate period of time 
to show and prove that they are high-performing schools and 
then get an exception to say that you have proven to us that 
you can meet the measure. Now, we are not going to hold you to 
the same standard of dragging you through this process year 
after year after year just to validate what you have already 
proven to us.
    So I think there definitely needs to be some room in the 
legislation to allow a carefully thought out but very important 
scripted measure to allow schools and high-performing school 
districts to have some form of exemption based on their 
performance.
    Mr. Walberg. Okay. Thank you.
    I thank the chair.
    Chairman Kline. The gentleman's time has expired.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you for the witnesses on that. You know, I was sort 
of amused when I was listening to Mr. McKeon talk, as we have 
had this discussion before, about the notion that, you know, 
the Federal Government ought to get out of the way. And I think 
last fall we heard a lot of that.
    It is, you know, an entity that spends less than 10 percent 
of the money on elementary and secondary education has got 100 
percent of the problems attributed to it. So let me ask this. 
Are any of you contending that there was a day when the Federal 
Government was out of education?
    It was called the pre-1960s and 1970s before the decisions 
by the courts that every child deserved an education and we put 
in money for Title I and IDEA. Any of you contend you want to 
go back to that day where the federal funding just comes out 
and you believe that every state and local community will put 
up the money necessary, raise the taxes to do it and educate 
every child, including disadvantaged children and children with 
disabilities? Anybody making that case?
    Mr. Grier. No, and I am not that old. But I was in 
education back in those days. And I can remember being in 
school when there were no special education students in school. 
There were special education students in my neighborhood, and 
parents kept them at home.
    I think that there is--as I said earlier, there has to be a 
balance between federal accountability and flexibility. I want 
to make sure that all children get the education that they 
deserve.
    Mr. Tierney. And I think that is exactly what we are 
talking about here.
    Mr. Grier. Yes.
    Mr. Tierney. But I wanted to make that point because we 
just heard so much about it last time as the only--if you want 
the Federal Government out, then they surely can get out. But 
then you have got the issue of dealing with it yourself and 
understanding that everybody has got to raise the taxes and do 
the job necessary. And we haven't seen that history.
    But that brings me to another point on that.
    Dr. Barresi, you mentioned the federal restrictions with 
supplement, not supplant. And you said that they have prevented 
you from pursuing state initiatives. Can you tell me a little 
bit more about how your initiatives have been prevented with 
that notion?
    Ms. Barresi. Well, we are running into that requirement 
quite a bit, particularly as our state faces some overwhelming 
financial challenges within our state. And if that were lifted, 
if we were allowed increased opportunities to further programs 
that are losing funding because of lack of state dollars to be 
able to use federal dollars, particularly in Title I money, 
more flexibility in that area, that could allow us to be quite 
more----
    Mr. Tierney. That puzzles me enormously. So you would 
expect the people at the federal level, all right, to tell 
their taxpayers that they are going to put money down because 
the people at your local level just don't want to tax people to 
pay for what you think is essential?
    And so, I told you--and, Dr. Grier, you mentioned that, in 
your statement, that the education stabilization fund, which 
had few federal requirements attributed to anything, led to a 
number of states cutting their own state funding even further 
than necessary and simply replacing it with federal money. 
Isn't that a path down to eventually hurting us in terms of 
accomplishing what we want to do and raising all the standards 
and the quality on that?
    Mr. Grier. We think so.
    Mr. Tierney. Yes.
    I mean, I just don't get it, Dr. Barresi, about how--I 
mean, it is nice to not have to take responsibility. And it is 
nice to have somebody else pick up the tab. But what you 
really, we suspect, want to do is get your local people to keep 
partnering with the Federal Government and everybody take the 
responsibility and assess priorities and determine what is 
important in your community.
    Ms. Barresi. I think what we are talking about is the 
opportunity to have more flexibility to target those dollar 
bills at areas where they can be most effective for students 
such as innovative learning----
    Mr. Tierney. Well, I am not sure that is what you said. I 
mean, supplement, not supplant is not a question of 
inflexibility. It is a question of taking the federal money and 
running away with the state money on that.
    And the other thing on that, under the current law, we have 
a considerable amount of transferability that is allowed on 
that. And in the law, I see that of the 14,000 total education 
agencies, only 1,700 use the right to transfer funds. So it 
seems to me that a lot of LEAs aren't even using the 
flexibility process that is already in the statute.
    Ms. Barresi. That question was raised for Secretary Duncan 
last week at our meeting for the Council of Chief State School 
Officers and whether it is clear intentioned and desire on his 
part and at the upper tiers at the U.S. Department of 
Education. What happens is that when you get into program 
auditing and the requirements of programs, much of that 
flexibility is gone away. He has great intention on doing that, 
but what has actually come out in practice is somewhat 
restricted.
    Mr. Tierney. Okay.
    Dr. Grier, you mentioned that you envision a system of 
uniform professional development. I would like you to talk a 
little bit about more on that, if you would.
    Mr. Grier. The professional development that we believe 
needs to be delivered at the school level--and it doesn't need 
to be a one-size-fits-all. We have teachers in all of our 
schools in Houston who have different ability levels and versus 
coming in and requiring all teachers in a school to sit through 
the same staff development. Or the same training when you have 
a teacher sitting there, quite frankly, who could be conducting 
the training makes no sense to us.
    But it needs to be a system of training. I happen to 
believe that we need to have more training that is 35 to 45 
hours in length where you train the teacher. They then can go 
practice what they were taught. You give them feedback, then 
you do training, practice, feedback. It is more of a business, 
more of a military model of staff development than what we have 
traditionally done in education where we have had drive-
throughs and half-day training sessions or one-day training 
sessions.
    I don't believe you can change adult behavior. I know my 
golf game doesn't get much better when I just go out and hit a 
few practice balls, I can tell you that.
    Mr. Tierney. Thank you.
    I yield back.
    Chairman Kline. I was going to say--I thank the gentleman.
    My golf game doesn't get any better whether it is 3 hours 
or 3 weeks.
    Mr. Kelly?
    Mr. Kelly. Thank you, Mr. Chairman.
    And I do appreciate you all being here. And this is a 
difficult thing because I come from the private sector, private 
business. And I always like to think you can only spend a 
dollar once. Once it is gone, it is gone. And right now, we are 
facing just unsustainable amounts of money that we are 
spending. And we are trying to figure out what is the best 
return on our investment.
    Because whether we want to address it as a business or not, 
education is a business. And so, certainly, if we were to look 
what we are spending per student, we should have absolutely 
scores that go off the chart. And we don't.
    In my business, we have what they call 20 groups, where 20 
dealers get together. They share each other's financial 
information. They use common data on common forms to come up 
with solutions to common problems.
    So I would wonder from each of you because the sense that I 
get is that too often you have got a government who gets 
involved and tells you what it is that you have to do and makes 
it so rigid that to get there, to get through--jump through all 
those hoops and dot all the i's and cross all the t's, at the 
end of the day, you say, you know what, it costs me too much to 
do that for the little bit I am getting.
    And then the other part, of course, is if you have never 
done it, how do you tell people how to do it. So I would like 
to know do you have the ability to actually talk with each 
other, share common data and do the common analysis and come up 
with best practices that fit your school, based on what you see 
from around the country or from other districts.
    Ms. Barresi. Certainly, I see the national conversation 
very much so going in that direction. As our data systems 
continue to mature and improve, it is very important that we 
have the ability to, not just show results, but show that in 
relationship to the dollar bills that are spent for a 
particular program.
    So would $500 a student for a reading program be more 
effective or less effective than $2,000 per student spent on a 
program? We have to be able to equate then the results that we 
get for the dollar bills that are expended and then share those 
best practices, not only in our state, but across the country. 
I agree with you that data is very important and that we become 
more sophisticated in how we use that.
    Mr. Amoroso. We are beginning to see more conversations 
regionally about the very topic that you bring up. I think in 
the past, districts were fairly isolated and you worried about 
what you were doing because that was all the time you had, you 
know, to do those types of things.
    But now we are seeing consortiums that are starting to get 
together, look at best practice and instead of one district 
trying to do an innovation, which could be viewed within their 
community as taking a risk with their children, you are seeing 
consortiums of districts getting together and each group taking 
a different aspect of an innovation, working it through. But 
then it is more of a collaborative effort.
    And then you bring the data together to see what is really 
working. And then you determine can you take that innovation or 
that process and begin to expand it outward so that it is not 
one district being viewed as experimenting with children, 
which, quite frankly, our parents would not like if they felt 
we were experimenting with their children. But it is taking 
best practice. It is taking the latest research and trying to 
improve upon the educational experience of their children.
    Mr. Maqubela. Congressman, I believe in taking it one step 
even further. You know? We note that in the global world that 
we live in, our kids are not just competing with their next-
door neighbors or even their peer group across the country. We 
are competing internationally and globally. So we follow that.
    Best practices, of course. It is common sense. It works in 
all businesses, and it has worked for years.
    Two weeks ago, we were visited by Michael Gove, who is the 
state secretary of education for the United Kingdom. He came to 
our school, spent about half the day with us. And it wasn't 
just a show and tell. It was a true sharing and exchanging of 
ideas of what works here, what works there, what are the things 
that we can incorporate that he is including, not just in 
England, but throughout the Caribbean and other areas where his 
reach touches.
    Additionally, we are involved in partnerships, and we take 
advantage--you know, one of the areas we talk about savings, 
there are so many ways we can use modern technology to hit on 
just this very thing. Our school is part of an international 
consortium of schools that started with Phillips Academy in 
Andover, Massachusetts with two schools from Shanghai, a school 
from Beijing, two schools from South Africa and a couple 
schools from Ghana to work together along this same line.
    When we have a--our first conference is next month. But 
when we go home to our respective countries, all we have to do 
is sit at our computer and Skype each other. We have an 
international learning community that we are able to build upon 
because those are the people that our kids are truly competing 
with.
    Mr. Grier. I want to take just a little different view of 
this than my colleagues. I don't think it happens in education 
much. And in many cases, I don't think it happens at all. I 
think it is a good model that perhaps business has done better 
than we and maybe even charters.
    But I know even in my own school district, we do not have 
enough of sharing of best practices. That is something we have 
worked very hard on this year, but we are a long way from being 
where I think you are in terms of what you described.
    And I would say to you I think that is the same thing in 
public education across the country. We go to maybe one or two 
national conferences where some best practices are shared. But 
with the limited budgets, we don't have a lot of people 
traveling. And we have got to do a better job with that in 
public education.
    Chairman Kline. Thank you.
    The gentleman's time is expired.
    Dr. Bucshon?
    Mr. Bucshon. Thank you, Mr. Chairman.
    Getting the Federal Government out of the way, in my view, 
means allowing local school districts to utilize their federal 
dollars in the best way they determine that will effectively 
educate their students in their community and not have a one-
size-fits-all--excuse me--government approach, which is very 
restrictive and which stovepipes federal funding into 
categories that allow inflexibility in the utilization of 
federal funds.
    And so, from my viewpoint, that is what we mean by getting 
the Federal Government out of the way. I think most people 
would not argue completely removing the Federal Government's 
role, but certainly, lessening it and allowing more 
flexibility.
    I have four children. And one of the things that I feel 
fortunate to have is the ability to, as a parent, to, not only 
promote education in this committee, but to understand that, in 
my view, one of the biggest problems we have in America is with 
children who don't have parents like myself, or maybe you all, 
that think education is important.
    And the ones that do that are stuck in situations where 
their opportunities for their children may be more limited than 
my children have in our community, I believe that we need to 
have viable options for parents to make the decision to educate 
their children, giving them the best opportunity to succeed as 
possible.
    In that vein, I want to talk briefly about Florida's McKay 
scholarship program related to disabled students in Florida 
having access to a voucher program that allows them to attend 
whatever schools that their parents think would best benefit 
them, and to point out that this study is the first really 
empirical evaluation of the impact exposure of a voucher 
program on the public schools that surround that community.
    And what this study shows is actually the students who 
remain in public school with the same disability criteria as 
those that left to go to the surrounding private schools 
actually improved also in their educational testing standards 
and that those are with the mild disabilities.
    Those with severe disabilities there was actually no change 
at all between the students remaining in public school and 
remaining--and going to the private school. So this has been 
one of the biggest--one of the biggest debates over the last 20 
years about the effect of allowing parental choice for students 
in disadvantaged environments to make the choice to improve the 
quality of life of their child by allowing them another 
opportunity.
    So what I would like to hear comments, first from Dr. 
Barresi--and good to see you again--about your views on 
parental--what I would call parental choice programs such as 
the McKay scholarship program. And do we feel, actually, there 
is any data to support the fact that this will limit the 
functioning of the public school system in our country, which, 
by the way, is the foundation of why we have such a great 
country, the establishment of a solid public school system? 
Thank you.
    Ms. Barresi. Appreciate your question. As you may or may 
not know, I am the founder of two charter schools in the State 
of Oklahoma. So obviously, I am a big believer that parents 
should determine--they should have the first choice on where 
their child attends school.
    And to that fact, I am proud of the fact that we are 
expanding opportunities for students in education choice within 
the state, not only in charter schools. But I am proud to say 
our legislature passed a bill in its last session to provide 
what is called--it is called the Lindsey Nicole Henry bill. And 
this is an opportunity scholarship for handicapped children to 
where their parents can get up to 95 percent of the state 
dollars and utilize those in a private school setting for their 
child.
    Now, my colleagues may disagree with me or not. And because 
public school, traditional public school advocates say this is 
diluting dollars for children. In my estimation, this is the 
dollars following the child to the classroom, whether that 
classroom is in a private setting or in a traditional public 
school setting or in a charter school or any other setting that 
a particular state has.
    I think it is important that we allow that to continue to 
happen. I think it does incentivize innovation within the 
general population. There is nothing like competition and 
accountability to move that forward.
    Mr. Bucshon. Thank you.
    I would just like consent to submit the McKay scholarship 
program study into the record.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Kline. Without objection.
    Mr. Bucshon. Thank you.
    Chairman Kline. I think all members have had a chance to 
ask questions.
    I will yield now to my colleague, Mr. Miller, for any 
further questions or closing comments he may have.
    Mr. Miller. Thank you.
    Just to follow up on the last point you made, Ms. Barresi, 
so you would favor federal funds, which are for the most part, 
let us just keep the big categories, IDEA and Title I, those 
funds following the student and be a per capita--and they would 
follow the student?
    Ms. Barresi. I think these are taxpayer dollars. These are 
dollars that taxpayers have paid for their children's 
education. I think those dollars need to be following the child 
to the classroom, yes, sir.
    Mr. Miller. No, I understand. I understand why you are 
saying that. But let me then just input. Obviously, when you 
follow Title I dollars and IDEA dollars, there is a lot of 
leakage between what would be a per capita allocation per child 
and what districts do with those monies.
    Ms. Barresi. Correct.
    Mr. Miller. In some areas, IDEA funds are used for 
essentially property tax relief. In other areas, we know the 
leakage that goes on between Title I and the payment of 
teachers in non-qualified--you know, eligible schools, if you 
will. But that is to show you--I am not being opposed to this. 
I am just trying--we have had a lot of discussions about this, 
and I am just trying to sort it out. You run, you know, a large 
operation. I am just trying----
    Ms. Barresi. And that flexibility is important, I believe. 
I believe we have to put in a lot more flexibility in how we 
actually do seed our dollars.
    Mr. Miller. But understand something. If you want the money 
to follow the child, the purpose of this money for that child 
who is Title I eligible is a national purpose based upon the 
civil rights decisions in this country. The money following the 
child with IDEA--and I don't disagree with any of this--is 
there because of the Supreme Court of the United States, not 
because we decided one day to wake up and help educate the 
children with disabilities.
    We did that because local districts found themselves at the 
end of a Supreme Court decision that they didn't believe that 
they could handle on their own. So I am just trying to sort 
this out because I think it is a crucial question. I think it 
is a very crucial question.
    Ms. Barresi. Well, I know in Oklahoma, that with our 
Lindsey Nicole Henry scholarship opportunity, those federal--
pardon me--those federal IDEA dollars do not follow the child 
into that private school. And I think it is something that 
should be considered in terms of an opportunity for those 
children.
    Mr. Miller. I don't disagree with you. I am not here--I am 
not playing an adversarial role here. I am just trying to sort 
this out. I have been trying to explore this for a number of 
years about how you get the resources on behalf of those 
students to the place where they have the best opportunity to 
succeed. And I think in the--okay, we will continue that 
conversation.
    I think the question, as we transition, you know, to a 
growth model, and I think there is general agreement that that 
is the direction we will go--the first time my state tried it, 
it was sort of growth to nowhere. Then they got it right, and 
they have pretty good--very good standards at this point.
    And I think that that is important because I think you 
can--I appreciate people dismissing AYP. But when a school has 
7 percent of its children reading at fourth grade level, that 
isn't the federal problem. There is something else going on 
here. And when you have 13 percent of your eighth graders at 
the eighth grade level, you have got a problem.
    So you can dismiss it. And we know it is a snapshot in 
time. You are comparing this fourth grade against that fourth 
grade. Also it is telling you something about this school. And 
so, as we move to a growth model, you can't have children 
languish in that system.
    You know, you talk about you are a middle school, you are a 
charter school. So you bring kids with all these problems. But 
we see other middle schools, charter schools that take those 
kids and get them up to speed, because otherwise, on your 
suggestion, you would be graduating kids that would be in need 
of dramatic remedial education to go onto a 2-or 4-year 
college.
    Mr. Maqubela. Right.
    Mr. Miller. Right?
    Mr. Maqubela. Congressman, what I was speaking to is that 
we see that only in our first year. But by the time they leave 
us in the eighth grade year, we have done just that. And our 
numbers show that overwhelmingly, our students not only leave 
at grade level, but actually above grade level. But determining 
whether or not we are a failing school is judged in that first 
year.
    Mr. Miller. No, I understand that. I understand that. And 
that is why we are moving. But I just want to make sure that we 
are talking about career or college-ready standards at the end 
of the traditional place at twelfth grade.
    Mr. Maqubela. Right.
    Mr. Miller. You should be career or college-ready.
    Mr. Maqubela. Absolutely. And that is what we are saying.
    Mr. Miller. And that has got to be the growth. Now, with 
the advent of common core standards, if states, in fact, do end 
up embracing this and participating in this, then you have 
what, in theory, on those subjects you have agreed to those 
where the growth should go to those standards.
    Because remember, when we did No Child Left Behind, there 
was no way in hell the Federal Government was going to tell 
states what their assessments were going to be. That would have 
been a non-starter, just politically. It was not going to 
happen.
    So we took the states as we found them. A lot of states 
don't like their tests. There are no federal assessments. There 
are no federal assessments. So the states--you know, you kind 
of argued it both ways.
    So as we transition, it just has to be clear about one of 
the points, Mr. Chairman, the civil rights aspect of this 
legislation, the accountability sections of this legislation. I 
think both of those allow dramatic improvements in flexibility. 
But you lose those, then you are back to general assistance on 
education. Why would I raise the taxes of my constituents to 
pay for the education if there wasn't a national purpose?
    You could say, well, it is the economy. That is another 
discussion. I don't think you want to have that in this 
Congress, but it would be interesting. It would be an 
interesting discussion.
    So I think there is a serious rationale because these are 
the children most likely not to get that full educational 
opportunity. And that is why we make these decisions. I think 
this panel--if any one of you want to comment, the light is on, 
so I can take a quick comment. I don't----
    Chairman Kline. It is that ranking member privilege.
    Mr. Miller. Any comments on this? Or nod if you are in 
agreement.
    Mr. Amoroso. I think you have made a lot of good points. I 
mean, I don't think there is a lot of argument against that.
    Mr. Miller. You get an A. Let us see how we are going to 
grade your school, Mr. Amoroso. [Laughter.]
    Ms. Barresi. One thing we want to look at also, besides 
just that growth model, is to look at other indicators of 
success: how many students within that school are taking A.P. 
courses in their high schools; how many have concurrent 
enrollment; how many students are--let us take a group of 
students. How well are they bringing up the lowest quartile of 
their performing students?
    I think what is appropriate is to get an overall view of 
the professional effort of that school, take a look at the 
professional development of their teachers, parent involvement 
as well, possibly even a small percentage for parent evaluation 
of the performance of their school.
    Mr. Miller. I wouldn't disagree with you on that. Or I want 
to make sure that it is real and it is measurable. When we 
opened it up, I started the discussion on multiple indicators 
around here 4 years ago, as Mr. McKeon was pointing out, and 
all hell broke loose.
    But let me tell you, there were more suggestions for 
indicators than you could shake a stick at. Do the students 
feel good about the school? Are the students happy? Are the 
students--that is all interesting. But at the end of the day, 
are they college and career-ready? And there were no shortage--
there was no shortage of people who had indicators of--you 
know, does the sun come in from the South in the morning?
    So I agree with the multiple indicators. But I think they 
have to be real, and they have to be measurable. And I think 
that is important.
    The final thing I just would say on this question of an 
exemption, if you are doing well, you get an exemption, I have 
watched wonderful turnaround schools implode out of the 
complete surprise of everyone. That is not an indictment. I 
just think you have to keep the accountability in place. And I 
think we can construct a flexible system that that won't be as 
important as it might be today under the regime that we are 
operating under.
    Mr. Maqubela. And what I would say to that is it is not the 
suggestion that any oversight body, whether it be the Federal 
Government or some other entity, walk away completely because 
the school have shown, but that those schools be allowed to 
build upon the success that they have shown. So we are not 
saying that there is no measurement, but as opposed to every 
year or every 2 years that there is some break in that 
assessment so that those schools can do more of what they are 
doing great.
    And again, just that we are not treating everybody the same 
way. And if we give the opportunity for those schools that have 
demonstrated what they can do to do more of that with less 
burdensome guidelines, I think what they will do is benefit 
more of those----
    Mr. Miller. I am not treating everybody the same way. In 
fact, what I am seeking is a system that you will be 
accountable for and then your parents and the communities and 
whoever else can make a decision based upon the transparency 
and the real nature of the data whether or not they want to 
send their children.
    We have people in California now making decisions that they 
don't want to send their children to school. As a matter of 
fact, they want to change this school. I think parents and 
community, with good data that is transparent, will have a--can 
create a better accountability system than what we are trying 
to do from 2,000 miles away, pulling a lot of levers.
    I am done.
    Chairman Kline. I thank the gentleman. [Laughter.]
    Mr. Miller. I have----
    Chairman Kline. I think I agreed with everything that he 
just closed with, at least. Obviously, as we go forward in this 
reauthorization process--and it will be a process of probably 
several pieces of legislation, we are going to absolutely have 
to address the fundamental question that Mr. Miller just 
raised--is in accountability, it will be accountability to 
whom, for what. And so, that data and that transparency is 
going to be part of this discussion.
    And the to whom, I am inclined to agree with Mr. Miller 
that the people where you are, those parents and those school 
boards and those communities, are going to be the people who 
will be most accountable to and not necessarily the man or 
woman down the street. So your testimony is very, very valuable 
here.
    And the concerns about flexibility, which every one of you 
spoke to, where money is sequestered or set aside or in the 
wrong silo, in the wrong tube and you need to move it from this 
tube to that tube is something that we are hearing more and 
more of. And we intend absolutely to move to address those 
concerns.
    So thank each of you.
    Dr. Grier, give my best to my former, once upon a time home 
town for 4 years of Houston, Texas while I was a--while I was a 
student there.
    Mr. Maqubela, congratulations on MS-2. What a wonderful, 
wonderful story that you have to tell here.
    Dr. Amoroso, give my best to my neighbors when you get back 
there.
    And, Dr. Barresi, please give our highest regards to our 
former colleague and your governor, Governor Fallon.
    Thank you all. And with no further business, the committee 
stands adjourned.
    [Whereupon, at 12:51 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
